<html>
<title> - LEGISLATIVE BRANCH DIVERSITY MANAGEMENT REVIEW</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
             LEGISLATIVE BRANCH DIVERSITY MANAGEMENT REVIEW 

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 16, 2008

                               __________

                           Serial No. 110-153

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-814 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





























              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

                        DANNY K. DAVIS, Illinois
ELEANOR HOLMES NORTON, District of   KENNY MARCHANT, Texas
    Columbia                         JOHN M. McHUGH, New York
JOHN P. SARBANES, Maryland           JOHN L. MICA, Florida
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DENNIS J. KUCINICH, Ohio, Chairman   JIM JORDAN, Ohio
WM. LACY CLAY, Missouri
STEPHEN F. LYNCH, Massachusetts
                      Tania Shand, Staff Director




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 16, 2008...............................     1
Statement of:
    Bailey, Teresa, Director, EEO/Conciliation Program, Architect 
      of the Capitol; Gloria L. Jarmon, Chief Administrative 
      Officer, U.S. Capitol Police; Ronald Stroman, Managing 
      Director, Office of Opportunity and Inclusiveness, U.S. 
      Government Accountability Office; Nadine Elzy, Director, 
      Office of Equal Employment Opportunity, U.S. Government 
      Printing Office; Stephanie Ruiz, Director, Human Resources, 
      Congressional Budget Office; and Jesse James, Jr., Acting 
      Director, Office of Workforce Diversity, Library of 
      Congress...................................................    77
        Bailey, Teresa...........................................    77
        Elzy, Nadine.............................................   107
        James, Jesse, Jr.........................................   124
        Jarmon, Gloria L.........................................    85
        Ruiz, Stephanie..........................................   113
        Stroman, Ronald..........................................    90
    Bates, Carol, Inspector General, Architect of the Capitol; 
      Carl W. Hoecker, Inspector General, U.S. Capitol Police; 
      Frances Garcia, Inspector General, U.S. Government 
      Accountability Office; J. Anthony Ogden, Inspector General, 
      U.S. Government Printing Office; and Karl W. Schornagel, 
      Inspector General, Library of Congress.....................     5
        Bates, Carol.............................................     5
        Garcia, Frances..........................................    20
        Hoecker, Carl W..........................................    12
        Ogden, J. Anthony........................................    39
        Schornagel, Karl W.......................................    53
    Chrisler, Tamara E., Executive Director, Office of 
      Compliance; and Janet Crenshaw Smith, president, Ivy 
      Planning Group LLC.........................................   137
        Chrisler, Tamara E.......................................   137
        Smith, Janet Crenshaw....................................   144
Letters, statements, etc., submitted for the record by:
    Bailey, Teresa, Director, EEO/Conciliation Program, Architect 
      of the Capitol, prepared statement of......................    79
    Bates, Carol, Inspector General, Architect of the Capitol:
        Letter dated October 1, 2008.............................    59
        Prepared statement of....................................     8
    Chrisler, Tamara E., Executive Director, Office of 
      Compliance, prepared statement of..........................   139
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, information concerning breakdown of 
      workforce..................................................     3
    Elzy, Nadine, Director, Office of Equal Employment 
      Opportunity, U.S. Government Printing Office, prepared 
      statement of...............................................   109
    Garcia, Frances, Inspector General, U.S. Government 
      Accountability Office, prepared statement of...............    22
    Hoecker, Carl W., Inspector General, U.S. Capitol Police, 
      prepared statement of......................................    14
    James, Jesse, Jr., Acting Director, Office of Workforce 
      Diversity, Library of Congress, prepared statement of......   126
    Jarmon, Gloria L., Chief Administrative Officer, U.S. Capitol 
      Police, prepared statement of..............................    87
    Ogden, J. Anthony, Inspector General, U.S. Government 
      Printing Office, prepared statement of.....................    42
    Ruiz, Stephanie, Director, Human Resources, Congressional 
      Budget Office, prepared statement of.......................   116
    Schornagel, Karl W. Inspector General, Library of Congress:
        Overall comments.........................................    67
        Prepared statement of....................................    55
    Smith, Janet Crenshaw, president, Ivy Planning Group LLC, 
      prepared statement of......................................   146
    Stroman, Ronald, Managing Director, Office of Opportunity and 
      Inclusiveness, U.S. Government Accountability Office, 
      prepared statement of......................................    92


             LEGISLATIVE BRANCH DIVERSITY MANAGEMENT REVIEW

                              ----------                              


                      TUESDAY, SEPTEMBER 16, 2008

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:23 p.m., in 
room 2154, Rayburn House Office Building, Hon. Danny K. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis, Cummings, Clay, Norton, 
Marchant, and Jordan.
    Staff present: Tania Shand, staff director; Lori Hayman, 
counsel; William Miles, professional staff member; Marcus A. 
Williams, clerk; Alex Cooper, minority professional staff 
member; and Howard Denis, minority senior professional staff 
member.
    Mr. Davis. The subcommittee will come to order.
    Welcome, Ranking Member Marchant, members of the 
subcommittee, hearing witnesses, and all those in attendance 
for the Subcommittee on the Federal Workforce, Postal Service, 
and District of Columbia's hearing to examine the legislative 
branch Office of Inspector General's report on their respective 
agencies' diversity programs.
    The Chair, ranking member, and subcommittee members will 
each have 5 minutes to make opening statements, and all Members 
will have 3 days to submit written statements for the record.
    Hearing no objection, so is the order. I will begin with an 
opening statement.
    This afternoon, the subcommittee will hold its second 
hearing on diversity in legislative branch agencies. The first 
hearing, which was held last November, focused on diversity in 
the senior ranks of these agencies. At that hearing, the 
subcommittee released a report analyzing the racial and gender 
diversity of the senior executive corps of six legislative 
branch agencies: the Government Accountability Office [GAO]; 
the Library of Congress [LOC]; the Congressional Budget Office 
[CBO]; the Government Printing Office [GPO]; the Capitol Police 
[USCP]; and the Architect of the Capitol [AOC].
    The report, which was based on information provided to the 
subcommittee by these agencies, found that women and minorities 
in the Senior Executive Service [SES], are underrepresented in 
most legislative branch agencies. As a followup to the November 
hearing, I asked the Inspector Generals [IGs], of the 
legislative branch agencies to conduct a review of their 
respective diversity offices. With the exception of CBO, which 
does not have an IG, last week each of the agencies issued a 
report of their findings to the subcommittee.
    A summary report compiling the data from all the 
legislative branch agencies was also issued to the 
subcommittee. The IG reports are the subject of today's 
hearing.
    The summary IG report paints a slightly more optimistic 
picture than is warranted. The congressional support agencies 
have a long way to go to improving diversity in the SES and in 
the developmental pools. This is particularly true for GPO and 
the AOC.
    For example, the summary states that the Architect of the 
Capitol and the Government Printing Office have been increasing 
minority representation since 2002. And while this is true, the 
Government Printing Office, the agency with the greatest 
percentage of progress, still has the lowest minority 
representation percentage points of the five agencies, 18.5 
percent. And the actual increase was from 1 minority out of 21 
SESs to 3 out of 26 SESs. At the Architect of the Capitol, the 
increase was from 2 minorities in the SES out of 15 to 5 out of 
27.
    At the Government Accountability Office, the IG found that 
the agency underreported its complaint and discrimination data. 
The Ivy Consultant Group, which recently issued its final 
report on the ratings disparities between Caucasian and African 
American analysts at the GAO will be testifying today.
    The USCP does not have a diversity program or equal 
employment opportunity office, and its complaint and 
discrimination data is collected by the Office of Compliance, 
OOC. The Office of Compliance, who will also be testifying 
today, administers the dispute resolution system established to 
resolve disputes that arise under the Congressional 
Accountability Act.
    As I did last year, I would like to caution the legislative 
branch agencies in comparing themselves to the executive branch 
when it comes to diversity in the SES. The executive branch is 
doing poorly in that regard, and legislative branch agencies 
are doing only slightly better. I encourage interested parties 
that impact each of the legislative branch agencies to obtain a 
copy from their respective reports. These reports are the first 
of their kind and serve as a wake-up call to Congress that it 
needs to do more to ensure that its own agencies are 
representative of the people it serves.
    This subcommittee will continue to hold hearings on this 
subject and will look to agency heads and their diversity 
offices to make improvements in this area.
    I now ask unanimous consent that the percentage breakdown 
of work force, SES, and GS-15 or equivalent table be included 
in the record. Hearing no objection, so is the order.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. So I thank you now, and will yield to the 
ranking member, Mr. Marchant, for any opening remarks that he 
might have.
    Mr. Marchant. Thank you, Mr. Chairman. I would like to 
thank you and the witnesses today for their appearance before 
this subcommittee.
    Today marks our sixth subcommittee hearing in the 110th 
Congress on diversity, and I look forward to listening to our 
witnesses and hear about the subcommittee's findings regarding 
the legislative branch. And I would like to commend you, Mr. 
Davis, for your strong and motivated efforts on behalf of work 
force diversity.
    The topic of today's hearing deals with diversity programs 
in several legislative branch agencies, mainly the Architect of 
the Capitol, the Government Printing Office, the Government 
Accountability Office, the Library of Congress, and the U.S. 
Capitol Police.
    In many cases, the legislative branch agencies are doing 
well and continuing to improve with respect to diversity, but 
in some cases there appears to be some slippage. I believe that 
this hearing will allow us the opportunity to look at the stats 
more closely and make recommendations that will make the 
legislative branch a much more diverse agency.
    Thank you, Mr. Chairman.
    Mr. Davis. Thank you very much, Mr. Marchant. And let me 
just express appreciation for your steadfastness. I agree when 
you said that we have had six hearings on this topic during 
this session of Congress. It reflects an indication of what a 
serious matter we think it is, and I appreciate your attention 
to it.
    And we will now call our first group of witnesses for panel 
1.
    Our witness list consists of Ms. Carol Bates, who is the 
Inspector General for the Architect of the Capitol. She joined 
the OIG in 2002 as an audit manager, and was named Assistant 
Inspector General for Audits in 2004. Ms. Bates also served the 
OIG as Acting Inspector General from late 2004 through mid-
2006.
    Ms. Bates, thank you very much for joining us.
    Our next witness is Mr. Carl W. Hoecker. He is the 
Inspector General for the U.S. Capitol Police. Mr. Hoecker's 
responsibilities include reporting directly to the U.S. Capitol 
Police Board, which is responsible for establishing and 
maintaining rates and schedules of basic pay for eligible 
employees. The OIG supervises and conducts audits, inspections, 
and investigations involving USCP programs, functions, systems, 
and operations.
    Thank you, Mr. Hoecker, for being with us.
    Ms. Frances Garcia is the Inspector General for the U.S. 
Government Accountability Office. Prior to being Inspector 
General, she was the Director of the Office of Recruitment, 
where she was responsible for all of GAO's nationwide 
recruitment.
    Thank you very much, Ms. Garcia.
    Mr. J. Anthony Ogden is the Inspector General for the U.S. 
Government Printing Office. Mr. Ogden joined GPO in 2004 as 
Assistant Inspector General for Administration and Inspections 
and Legislative Counsel.
    Thank you very much, Mr. Ogden, for being here.
    And our last witness on this panel is Mr. Carl W. 
Schornagel. He is the Inspector General for the Library of 
Congress. He was most recently a senior auditor in the Office 
of the Inspector General in the Department of Commerce and 
Project Manager For Evaluations of Information Technology 
Resources. He has more than 20 years of experience in 
evaluating Federal Government programs.
    Mr. Schornagel, thank you for being with us.
    And if you will all stand and join in raising your right 
hands, it is the custom and tradition of this committee that 
all witnesses be sworn in.
    [Witnesses sworn.]
    Mr. Davis. The record will show that the witnesses answered 
in the affirmative.
    Again, I thank all of you for being with us.
    As all of you have testified before this subcommittee 
before, you know the usual drill of summarizing a statement in 
5 minutes. The green light indicates that all of the time is 
present; the yellow light indicates that we are down to 1 
minute; and, of course, the red light means that the time is 
up. And if we will follow that, all of the written statements 
will be included in the record.
    And so we thank you again for being with us. And, Ms. 
Bates, we will begin with you.

STATEMENTS OF CAROL BATES, INSPECTOR GENERAL, ARCHITECT OF THE 
   CAPITOL; CARL W. HOECKER, INSPECTOR GENERAL, U.S. CAPITOL 
  POLICE; FRANCES GARCIA, INSPECTOR GENERAL, U.S. GOVERNMENT 
  ACCOUNTABILITY OFFICE; J. ANTHONY OGDEN, INSPECTOR GENERAL, 
   U.S. GOVERNMENT PRINTING OFFICE; AND KARL W. SCHORNAGEL, 
             INSPECTOR GENERAL, LIBRARY OF CONGRESS

                    STATEMENT OF CAROL BATES

    Ms. Bates. Good afternoon, Mr. Chairman, Congressman 
Marchant, and members of the subcommittee. Thank you for the 
opportunity to summarize the Architect of the Capitol Inspector 
General work force diversity report of July 28, 2008.
    The report, prepared at the request of this subcommittee, 
includes statistical information about the AOC's senior-rated 
[SR], employees and the developmental pool positions, GS-15 or 
equivalent. The report also includes the results of the review 
of the agency's hiring practices and equal employment 
opportunity office.
    I am a newcomer to the AOC, having joined the agency as its 
inspector general on August 18th, and have spent the past few 
weeks familiarizing myself with the organization, viewing the 
facilities, and reviewing recently issued AOC inspector general 
reports, including this report.
    The objectives of the review were to identify and assess 
the diversity programs of the agency and determine if it is 
creating a more diverse population of women and minorities in 
top leadership positions; evaluate the accuracy and 
completeness of the complaints and discrimination data being 
reported to the Congress; and assess to what degree the 
diversity offices are independent of the agency's general 
counsel.
    For objective two, the report includes a recommendation to 
improve data gathering, but concluded that the complaint and 
discrimination data is accurate and complete. I do note that 
the Congressional Accountability Act of 1995 gives the Office 
of Compliance the responsibility to handle formal EEO 
complaints for the Architect of the Capitol. Although the 
Office of Compliance is responsible for formal complaints, the 
AOC's EEO conciliation program can handle informal complaints 
if the parties agree to use this resource.
    The review found that indeed the EEO office operates 
independent from the Office of General Counsel.
    My remaining comments provide information on the report's 
objective to determine if the AOC diversity program is creating 
a more diverse work force. The answer is yes, but there is room 
for improvement.
    The statistics show that women and minority representation 
have generally improved between fiscal years 2002 and 2007. At 
the end of 2007, the work force was made up of 25 percent 
women. The ratio of women to men is less than the civilian 
labor force, which is made up of 46 percent women, and is also 
less than the executive branch composition.
    In terms of minority representation, the Architect of the 
Capitol's work force is 50.9 percent women, which--I am sorry, 
the minority representation is 50.9 percent, which exceeds the 
minority representation in the civilian labor force and the 
executive branch.
    In the same 5-year period, the composition of the AOC's 
senior-rated positions has changed to include more women and 
have become more diverse. Women made up 23 percent of this 
group in 2007, an increase from 13.3 percent in 2002. 
Minorities comprised 18.5 percent of the SR staff in 2007, an 
increase over the 2002 minority percentage of 13.2. In the 
developmental pool, the number of women increased from 12.5 
percent in 2002 to 23 percent by the end of 2007.
    The minority representation in terms of percent decreased 
from 37.5 in 2002 to 12.8 in 2007. Due to the relatively small 
size of the AOC's senior-rated and developmental pools compared 
to some of the other legislative branch agencies, shifts of a 
few employees significantly impact the ratios.
    Mr. Chairman, moving beyond the statistics, I am pleased to 
note that the AOC has adopted or is planning to adopt all nine 
of GAO's nine best diversity practices. The report also found 
that the AOC, while not required to file EEOC Management 
Directive 715, has adopted appropriate elements of this 
directive.
    The report also includes 15 recommendations designed to 
improve the hiring process and increase the role of the EEO 
conciliation program office. The recommendations include 
changes to formalize and manage the hiring process, document 
applicant interviews, to formalize and manage the process, and 
for the Director of the EEO conciliation program office and the 
Architect of the Capitol to meet on a regular basis. It also 
includes a recommendation for the agency to set diversity goals 
and conduct agency-wide diversity training.
    The Acting Architect of the Capitol's response to the 
report includes an action plan designed to improve the 
diversity of the work force and address the report's 
recommendations. Some of the actions are already complete. I 
reviewed the plan and believe that it is responsive to the 
recommendations, and the timeframes for completion are 
reasonable. Furthermore, the action plan should help achieve a 
more diverse work force at the Architect of the Capitol.
    In addition to the response to the report, the AOC's human 
capital plan includes goals for the agency's affirmative 
employment program. The Acting Architect of the Capitol is 
committed to improving the diversity of the work force.
    Again, I want to thank the subcommittee for this 
opportunity to communicate the results of the AOC work force 
diversity report, and I am available to answer any questions 
you may have.
    Mr. Davis. Thank you very much, Ms. Bates.
    [The prepared statement of Ms. Bates follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. And we will go now to Mr. Hoecker.

                  STATEMENT OF CARL W. HOECKER

    Mr. Hoecker. Mr. Chairman, members of the subcommittee, 
good afternoon. My name is Carl Hoecker. I am Inspector General 
for the Capitol Police. Thank you for inviting me here today to 
discuss the executive level employees at the U.S. Capitol 
Police.
    At your request, my office conducted an audit of the 
Capitol Police's diversity efforts. Our objectives were to 
identify and assess diversity programs within the Department, 
evaluate the accuracy and completeness of complaints and 
discrimination data being reported to Congress, and to assess 
to what degree the diversity office is independent of the 
Department's general counsel and agency head. Our scope 
included diversity programs in effect as of January 1, 2008, 
and complaints and discrimination data for fiscal year 2007.
    OIG found that the Capitol Police does not have a formal 
diversity program or an equal employment office employment 
function. However, the Capitol Police has made some progress in 
improving diversity in its executive level positions.
    Overall, the number of executive positions increased from 
18 to 21 between 2002 and 2007. Within that total, the 
representation of women increased from 16.7 percent for 2002 to 
28.6 percent for 2007, whereas representation of minorities 
decreased from 16.7 for 2002 to 14.3 percent for 2007.
    The Capitol Police representation of women in the executive 
positions was slightly higher than the career SES 
governmentwide percentage of 28.2 percent for 2007. The 
representation of minorities of Capitol Police executive level 
positions was below career SES governmentwide percentage of 
16.6 percent. As of May 12, 2008, however, minority 
representation in the Capitol Police executive positions had 
increased to 22.7 percent.
    The Capitol Police has also made progress improving 
diversity in the developmental pool for executive level 
positions. Overall, the senior level developmental pool has 
increased from 28 positions to 56 positions between 2002 and 
2007. Within that total, the representation of women increased 
from 14.3 percent to 30.3 percent, whereas representation of 
minorities increased from zero percent to 22.7 percent. 
Although Capitol Police compared favorably with the 
governmentwide SES developmental pools for total minorities, 
three categories--American Indian, Alaskan Native; Asian 
American, Pacific Islanders; and Hispanic--were below 
governmentwide percentages.
    Additionally, our comparison of the Federal work force and 
civilian labor force to Capitol Police's total work force 
showed that the overall Capitol Police total minority 
representation was greater than the Federal work force and the 
civilian labor force; however, women remain underrepresented in 
the Capitol Police total work force as compared with the 
civilian labor force and the Federal work force.
    The Capitol Police has implemented some of Government 
Accountability's best practices and Equal Employment 
Commission's Management Directive 715 for establishing and 
maintaining effective diversity and equal opportunity programs; 
however, the Capitol Police could achieve a more diverse work 
force if it had a formal diversity program.
    The Office of Compliance for legislative branch agencies 
administers alternative dispute resolution program established 
by the Congressional Accountability Act, and is responsible for 
reporting complaints of discrimination data from the Capitol 
Police to Congress.
    During fiscal year 2007, 18 Capitol Police employees 
requested counseling through the OOC process. Capitol Police 
employees may also report their complaints through a collective 
bargaining agreement, the grievance process, and/or the Capitol 
Police process. During 2007, Capitol Police employees did not 
make any grievances related to EEO discrimination through the 
collective bargaining agreement.
    The Office of Professional Responsibility for the Capitol 
Police is the element for investigating antidiscrimination 
reprisal allegations. They reported four cases for fiscal year 
2007.
    As stated before, the Capitol Police does not have a 
separate diversity or EEO office; however, the OPR is 
independent of the general counsel and of human resources. Yet, 
the Office of Employment Counsel does handle disciplinary 
review, legal sufficiency reviews, and represents the Capitol 
Police and the Capitol Police Board in EEO complaints. Best 
practices state that legal sufficiency reviews of EEO matters 
must be handled by a functional unit that is separate and apart 
from the unit which handles agency representation in EEO 
complaints.
    OIG made four recommendations to the Capitol Police for 
more effective and efficient diversity strategies to assist 
women and minorities in advancing to executive level positions 
within the organization.
    Specifically, USCP should finalize its human capital 
strategic work force plan, identifying critical executive level 
and supervisory positions and the needed skills and abilities 
required for its future diverse work force. In addition, we 
recommend that the Capitol Police consider outsourcing 
investigation of discrimination complaints or obtain formal 
training for EEO investigators; and determine whether the 
duties of legal sufficiency reviews and agency board 
representation in EEO matters are incompatible and impair 
independence either in fact or appearance with respect to EEO 
complaints.
    I will be happy to respond to whatever questions you may 
have.
    Mr. Davis. Thank you very much.
    [The prepared statement of Mr. Hoecker follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. And we will proceed to Ms. Garcia.

                  STATEMENT OF FRANCES GARCIA

    Ms. Garcia. Chairman Davis and members of the subcommittee, 
I am pleased to be here today to discuss the work we did on 
GAO's diversity programs. This hearing also gave me a great 
opportunity to be able to work with the other legislative 
inspector generals. I am of Mexican descent, and it is 
especially noteworthy for me to be here today talking about 
diversity on Mexico's Independence Day.
    As you know, in today's multicultural work force, diversity 
brings a wide variety of perspectives, approaches to bear on 
policy development and implementation, strategic planning, and 
decisionmaking. Organizations that promote and achieve a 
diverse workplace attract and retain high-quality employees. 
GAO, similar to other Federal agencies, faces both 
opportunities and challenges in increasing the diversity of its 
top leadership. The bottom line is, diversity is good business.
    In your request, you asked us to review three areas, the 
first area, whether GAO's diversity efforts are achieving 
better representation of women and minorities in top 
leadership. We found that overall, between 2002 and 2007, GAO 
made gains in the representation of women and minorities in its 
SES, management ranks, and equivalent positions.
    As shown on figure 1 that you had before you and in my 
written statement, GAO's leadership is generally more diverse 
in comparison with the executive branch and the labor civil 
force. At the same time, gaps remain.
    Top management has made a commitment to increasing the 
diversity of its workplace and has implemented many lead and 
diversity management practices. GAO has taken steps to 
identify, examine, and address potential barriers to the hiring 
and advancement of women and minorities.
    Last year, by contract and with the Ivy Planning Group, the 
agency began to expand differences in the average ratings 
between African Americans and Caucasian analysis, including 
those at the manager level. Some of the recommendations of that 
study have been implemented and others will be soon.
    In June of this year, GAO issued its first mandated work 
diversity plan which analyzed the demographic composition of 
the agency's entire work force and identified potential 
barriers to the advancement in hiring of minorities. As a 
result, GAO now has baseline data to assess its future 
diversity efforts and an action plan for the next year to 
address gaps in minority representation. The acting controller 
general intends to annually prepare this plan, which will help 
the agency sustain attention on this important matter. We 
recommended that a formal policy be established to continue to 
annually produce a work force diversity plan. GAO agreed to 
this.
    Your second request was to evaluate the accuracy and 
completeness of GAO's fiscal year 2007 complaint and 
discrimination data. We found mistakes such as wrong dates and 
numbers were posted on the Web site. These errors have since 
been corrected. Also, GAO's report to Congress on fiscal year 
2007 complaint and discrimination information contained 
mistakes. Our recommendation in this area is that GAO revise 
relevant orders, procedures, and internal controls to assist 
them to accurately collect and report on complaint data. GAO 
agreed to a recommendation.
    Your final request was that we assess the independence and 
reporting relationship of the head of GAO's diversity office. 
We found that GAO voluntarily follows the first two of the 
three EEO requirements for executive branch executives 
regarding the independence and reporting relationships of EEO 
directors. The first requirement is that the director report 
directly to the agency head. The second requirement is that 
investigations and the legal sufficiency review on legal agency 
discriminations decisions not be done by an attorney that 
represents or defends the agency in such disputes.
    The third requirement states that personnel-related 
discrimination complaints functions be separated. GAO does not 
follow this, and currently this is under review.
    Mr. Chairman, and subcommittee members, this completes my 
oral statement. You have before you a copy of my written 
statement and my report, which is being released this 
afternoon. I would be happy to respond to any questions you 
have.
    Mr. Davis. Thank you very much, Ms. Garcia.
    [The prepared statement of Ms. Garcia follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. And we go to Mr. Ogden.

                 STATEMENT OF J. ANTHONY OGDEN

    Mr. Ogden. Thank you, Chairman Davis and Ranking Member 
Marchant, for the opportunity to testify before the 
subcommittee on this timely and important issue.
    I believe that embracing the unique qualities of each 
individual and ensuring the implementation of equal employment 
and diversity policies and objectives is essential to enhancing 
the quality of our work life and the productivity of our work 
force. Everyone in the workplace should be afforded the 
opportunity to develop, perform, and advance to their maximum 
potential based solely on their merit and without regard to 
race, color, religion, national origin, gender, age, 
disability, or sexual orientation.
    At the request of this subcommittee, my office conducted an 
audit of the diversity program at GPO. Along with my other 
legislative branch colleagues, we used EEOC Management 
Directive 715 and the leading diversity management practices 
identified by GAO as the benchmarks to conduct our assessment. 
On September 11th, we issued a report entitled Diversity 
Management Programs at the Government Printing Office.
    Our audit specifically identified that although GPO is not 
required to comply with MD 715 or GAO's leading diversity 
management practices, GPO has generally adopted three elements 
for creating and maintaining a model EEO program, namely, 
demonstrated commitment from leadership, efficiency, and 
responsiveness in legal compliance. Agency officials have also 
demonstrated top leadership commitment, one of the GAO's nine 
leading diversity management practices.
    Our audit results indicated that GAO has made progress in 
developing its pool of senior grade 15s. In 2002, 31 out of 32 
Grade 15s were men and included only 6 minorities. However, in 
2007 the pool of 15s grew to 79, and included 23 women, a 
nearly ninefold increase, and 25 minorities, a nearly 70 
percent increase.
    Only limited progress has been made in the makeup of the 
Senior Level Service employees. In 2002, there were 21 SLS 
employees--20 men, 1 woman, 1 minority--and in 2007 there were 
26 SLS employees, including 3 women and 3 minorities.
    We also found that during 2007, GPO complaints and 
discrimination data reported to EEOC and Congress were accurate 
and complete.
    Finally, we found the EEO director is independent of the 
general counsel and, to an appropriate extent, independent of 
the public printer in EEO matters.
    Based on the results of our audit, we believe that GPO 
could improve its diversity management. Accordingly, we 
recommended that agency management incorporate the remaining 
three elements of MP 715, and all or a combination of the 
leading diversity management practices identified by GAO.
    Key to the success of any diversity program is top 
leadership commitment. The Public Printer has emphasized his 
personal commitment to equal opportunity and diversity at GPO, 
with a position more comprehensive than that contemplated by MP 
715 or contemplated by this review, as it includes persons with 
disabilities as well as gays and lesbians. Indeed, a 
conversation about diversity is not possible unless all diverse 
populations and cultures that enrich our work force are 
included in the discussion.
    The following is a summary of our significant 
recommendations to GPO management.
    Because diversity management can help reduce costs by 
reducing turnover, increasing employee retention, and improving 
morale, we recommended that GPO place additional emphasis on 
integrating diversity into the agency's strategic plan to 
foster a culture of change that supports and values 
differences.
    GPO does not have effective methods for evaluating and 
measuring success of its diversity management program; 
therefore, we recommended GPO implement such methods and 
maintain and provide sufficient resources, including work force 
data and information technology tools, to allow EEO officials 
to track and evaluate the effectiveness of agency diversity 
efforts.
    Because hiring officials are crucial in diversity 
management, we recommended that GPO should emphasize in 
performance plans the commitments by managers to create a 
diverse work force and address the culture of diversity in 
order to nurture talent, create diverse opportunities, and 
maximize the potential of GPO's work force.
    Given the projected wave of retirements in the next decade, 
we recommended that GPO focus on succession planning by 
continuing to identify and develop candidates who have the 
potential to be future leaders, and selecting individuals from 
among a more diverse pool of qualified candidates to include 
Asian, Hispanic, and Native Americans. To improve its 
recruitment efforts, we also recommended that the hiring 
manager should be included in outreach and recruitment efforts.
    Although GPO has very active employee involvement through 
various employee groups such as the disability program, the 
Hispanic Employment Program, and the Federal Women's Program, 
we recommended that GPO continue to involve employees in 
diversity management and evaluate the existing employee groups 
to identify whether employees issues are fully represented 
before agency management. And finally, GPO should develop a 
diversity and training curriculum for all its employees.
    Although GPO management concurred with our recommendations, 
management did not provide details regarding what actions the 
agency plans to take to implement the recommendations. As a 
result, the recommendations are considered unresolved until we 
received details concerning the implementation.
    My office is committed to working with agency management to 
help ensure that GPO's diversity program continues to improve, 
and that GPO will be able to meet its future employment 
challenges with a more diverse population of qualified women 
and minorities in top leadership positions.
    Thank you again for the opportunity to testify before this 
subcommittee today. Additionally, I wish to express my thanks 
to the Supervisory Auditor, Joe Birch, and my assistant 
inspector general for audits, Kevin Carson, for their work, as 
well as my IG colleagues that are sitting with me today--Anne 
Toniashan--for helping us to make this come to fruition today.
    This concludes my testimony, and I will be pleased to 
address any questions.
    Mr. Davis. Thank you very much, Mr. Ogden.
    [The prepared statement of Mr. Ogden follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. And we will now go to Mr. Schornagel.

                STATEMENT OF KARL W. SCHORNAGEL

    Mr. Schornagel. Thank you, Chairman Davis.
    For our review, we defined senior-level positions as those 
in the Library's senior level executive [SL], system, which is 
roughly the equivalent to the SCS system. We defined the SL 
developmental pool as positions in the GS-13 to -15 range.
    For the fiscal year ending September 30, 2007, the Library 
reported a total work force of 3,786 staff, of which 55.2 were 
women and 45.6 were minorities. These percentages are above 
Federal and civilian work force levels. Included in these 
numbers are 95 senior level executives, of which 43.2 percent 
were women and 21.1 percent were minorities. The representation 
of both women and minorities is significantly higher than the 
governmentwide average, but slightly lower than the civilian 
work force.
    Women are similarly represented in the developmental pool. 
Minority representation in the developmental pool is lower than 
the governmentand civilian work forces, although there has been 
progress in the past 5 years.
    We determined and the Library agreed that there are several 
ways to further improve the Library's diversity program, so I 
will summarize our three findings from our July 2008 report.
    First, the Libraryis adopting many of the best practices in 
diversity management. Our assessment found that the Library is 
following most of the best practices recommended by the GAO and 
the Equal Employment Opportunity Commission. This includes 
linking its diversity plan and its strategic plans, and 
including diversity as a major element in managers' performance 
requirements. The Library's Office of Workforce Diversity is 
taking steps to better focus its efforts on identifying 
potential systemic barriers, if any, impeding full minority 
participation in upper-level positions.
    In addition to increasing its focus on barrier analysis and 
measuring program effectiveness, the Library also needs to 
complete its succession planning efforts. These are a major 
element in diversity management. The Library also needs to 
ensure that the service units are committing to and 
implementing diversification activities. Success of the 
Library's affirmative action initiative depends in large part 
on the service unit's success in providing equal employment and 
affirmative action opportunities.
    Second, the Libraryhas made progress in improving the 
developmental pool. Despite the favorable comparison of the 
Library's senior-level staffing with the executive branch and 
the genuine efforts we believe the Library has made and is 
making to improve, diversity at senior-level positions has 
remained constant since 2002. However, progress has been made 
in diversifying the GS-13 to -15 positions. This bodes well for 
the future, because GS-15 positions are widely considered to be 
the developmental pool for the senior level jobs.
    For librarian positions, the Library's efforts to achieve 
more diversity in the management ranks are hindered by the lack 
of qualified applicants. According to the American Library 
Association, the percentage of credentialed minority librarians 
lags significantly behind the representation of minorities in 
the civilian labor force. This highlights the importance of in-
house grooming of current staff through training and mentoring 
programs.
    And third, the Library's diversity office is independent, 
and its data is accurate and complete. Results of tests we 
performed show that the Library's EEO data is accurate and 
complete--I am sorry. Likewise, we concluded that the Library's 
Office of Workforce Diversity and its component Equal 
Opportunity Complaints Office are independent of the Library's 
general counsel, human resources director, and, to the extent 
practical, the Librarian.
    Our conclusion is that, overall, the Libraryis committed to 
diversity. Union officials we spoke with believe the Library's 
diversity and equal employment policies and procedures, as well 
as its merit selection plan, promote diversity in the 
workplace. Likewise, the Library has effective diversity 
programs if fully implemented. Thank you.
    [The prepared statement of Mr. Schornagel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. Thank you very much, and we want to thank each 
one of our witnesses. Let me ask a couple of general questions 
and I'd like for each one of you if you would to respond. On 
the basis of the experiences of your agency, when I look at the 
diversity, as I guess some of us do, I try and look 
comprehensively across the board at what we really mean when we 
talk about diversity. So I would like to ask what areas of 
diversity on the basis of race, sex and disability would you 
say had the greatest need of attention to your agency? And 
perhaps I would begin with you, Ms. Bates.
    Ms. Bates. Mr. Chairman, in light of the--my recent taking 
over the position of the Inspector General, I would like to get 
back to you on that and submit an answer for the record.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. All right. We would appreciate that. Mr. 
Hoecker.
    Mr. Hoecker. Yes, sir. With disability I just wanted to say 
that with officers it would be kind of hard for them because 
they are supposed to be physically fit, etc. So I don't know if 
they could really do much in that area, sir, in terms of 
officers, perhaps in a support role. But since most of the work 
force population, 1,600 or so, is officers, it might be 
difficult to reach any kind of standards or goals for 
disability.
    But for race and sex, I think they made progress mostly in 
terms of race, we reported, as of 2007 fiscal year. So I think 
the Department can answer this and bring you up to date 
currently, but I think there have been a number of minorities 
that would be a positive there. But I think they are neck and 
neck. I think if you look at our developmental pool we have 
made great progress in the Capitol Police on that, but I think 
race and sex are neck and neck. You have to focus on both of 
them.
    Mr. Davis. Does the agency have a goal for people with 
disabilities?
    Mr. Hoecker. If they have a goal for what, sir?
    Mr. Davis. For people with disabilities.
    Mr. Hoecker. I'm not aware of that, sir. I could get back 
to you if you'd like.
    Mr. Davis. I know that there are some agencies that are 
beginning to establish and recognizing difficulty of a 
population group with one or more disabilities that kind of 
begin to look at areas of work preference in terms of where 
those individuals perhaps could fit in, notwithstanding the 
disability that they may have or experience.
    Ms. Garcia.
    Ms. Garcia. Our biggest need is in African American women, 
Asians, Hispanics and people with disabilities.
    Mr. Davis. And so you see the need to improve in the 
recruitment and movement of African American women as one area 
certainly and then the others?
    Ms. Garcia. In top management, yes, that's our biggest 
need, African American women, Asians, Hispanics and people with 
disabilities.
    Mr. Davis. Thank you.
    Mr. Ogden.
    Mr. Ogden. Chairman Davis, with respect to race I think, as 
noted in my testimony previously, the greatest need in the 
agency is with Asian, Hispanic and Native American to improve 
outreach and efforts and to increase predominantly their 
outreach to those areas to elicit larger support.
    When you look at what's happened within the pool of 15s the 
primary senior leadership prior to SLS, and there has been 
significant progress that the agency has made with respect to 
women and minorities, but again those areas could continue to 
see improvement.
    With respect to disability, it's my understanding--and we 
did not look at this specifically with this report. I believe 
Ms. Elzy in her followup testimony in the next panel can 
address this more specifically. But I understand GPO is one of 
the top five Federal Government employers for persons with 
disabilities and has a proud record with respect to its work 
force that has physical or mental disabilities.
    And so I would just also add a note that was not included 
in this review, but the agency has made outreach efforts and is 
doing work in the area of employing persons regardless of their 
sexual orientation as well.
    Mr. Davis. All right. Mr. Schornagel.
    Mr. Schornagel. At the Library of Congress I believe 
Hispanics is an area that kind of stands out. We lag somewhat 
behind the rest of the Federal Government and quite a bit 
behind the civil labor force, and to the a lesser extent people 
with disabilities.
    Mr. Davis. Thank you very much.
    Why don't I go to Mr. Marchant.
    Mr. Marchant. Thank you, Mr. Chairman. I think my first 
question for each of you would be what impact from a time 
standpoint in responding and has the creation of the diversity 
management office had on your agency?
    Ms. Bates. I would like to note that the Architect of the 
Capitol issued a Human Capitol Strategic Plan in 2007, and that 
plan is an umbrella for many affirmative plans and equal 
employment opportunity plans. As it is in its infancy with 
goals and targets for completion in 2009 and 2010.
    Mr. Marchant. So it has had little impact because you were 
already working on it?
    Ms. Bates. Yes, they are working on it, but my colleague on 
the next panel can address more of the achievements, but it is 
relatively new.
    Mr. Marchant. OK.
    Mr. Hoecker. Sir, since Capitol Police does not have an EEO 
office per se, the timeline is going to be when they request 
one. They had requested one in the 2009 budget request. So that 
is going to be huge if that position is funded. And also they 
have issued a draft strategic, Human Capitol Strategic Plan. 
They are working off some of those tenets in that plan right 
now, but it just needs to be formalized and approved. That's 
kind of the timeline with that.
    Mr. Marchant. Thank you.
    Ms. Garcia. With the recent work force diversity plan that 
was created--or issued in June of this year, it will give the 
diversity office a baseline to be able to do more and 
accomplish some of the barriers that are now facing minorities 
and women and they'll have a road map in which to be able to 
determine what efforts and how successful they have been at 
them. Since this is going to be done annually, they will be 
able to see the progress that is being made.
    Mr. Marchant. OK, thank you.
    Mr. Ogden. At GPO one of the recommendations we made is 
that the agency place more emphasis within the strategic 
planning process and develop the diversity plan and process and 
develop a diversity plan, as there isn't one that exists 
currently.
    Again Ms. Elzy can probably address the progress they are 
making in that regard. I can say that when the agency recently 
had a change and at the time our new Public Printer came on he 
demonstrated top leadership commitment, with both the GAO 
practices and MD-715 is contemplated as being one of the 
primary things and issued a very strong policy for the agency. 
And I do know that he did that in concert with the EEO office 
and the director of EEO, Ms. Elzy, and has been advancing 
efforts around diversity initiatives, because he's certainly 
made it a priority.
    Mr. Marchant. OK.
    Mr. Schornagel. Last year at the request of the Chief 
Operating Officer at the Library of Congress my office 
conducted a review of the Office of Workforce Diversity, which 
resulted in a fairly critical report of the entire 
organization. And I'm very optimistic because it is resulting 
in the, at least partially, reorganization of that office and 
refocusing of its efforts. And I think the Library has done a 
good job, even with the Workforce Diversity Office operating 
the way it had been for several years, and I'm certainly 
optimistic for the future.
    Mr. Marchant. OK. The next question will be kind of a 
little bit more philosophical. Do you find that when you have 
in your agencies specific job skills that would require an 
education--a specific education, that the trends in that 
specific field, let's say accounting, library science, that the 
trends of hiring follow pretty much the trends in those people 
that are seeking those degrees, so that if there are fewer 
Hispanics seeking library science degrees, then you're going to 
have a pretty direct correlation to the number of Hispanics 
that you can hire that you have a requirement that it is 
library science? Also in accounting and there's probably 
several other disciplines that are just a requirement of your 
hiring. So are you following--are your studies following those 
trends as well and do you see that as a major impediment to 
actually realizing the diversity that you're seeking or is that 
something that is of no consequence?
    Mr. Schornagel. I think it is of a lot of consequence as a 
matter of fact. It is something certainly that my office did 
not follow as part of the scope of this review. I'm not sure 
that the Library does either. Maybe they can comment on that 
later. But I think it is a very, very important element.
    I think that if you establish criteria on the assumption 
that you have a certain number of Hispanics who are graduating 
with accounting degrees or some other degree, then you may be 
working on criteria that can perhaps never be attained. And so 
you need to know exactly what percentage of college graduates 
are in a certain minority population and even break it down 
further as to the kind of position that you're trying to fill. 
So that's important data and that's, I think, the direction 
certainly that the Library is going in and all the agencies. I 
believe we have made those sorts of recommendations. And these 
are the kinds of things that the criteria that we talk about, 
GAO's criteria and the EEOC criteria, gets a more focused 
analysis of why things are the way they are, and what can be 
done to change the situation.
    Mr. Marchant. And even further--and I know we have a long 
way to go, but a larger rhetorical question is, can government 
pay the amount of money that government needs to pay to compete 
in society generally for the diversity that corporate America 
has already identified that it needs to have, corporate America 
has already been fairly actively pursuing, and now maybe at 
last government is beginning to catch up with this zeal and 
this goal. Does government have the tools, does government have 
the jobs, does government have the income to properly compete 
after we've identified our goals?
    I'll let somebody respond to that, but I guess I know what 
your answer will be, but I think that's an important part of 
the component and might be the ultimate impediment to reaching 
the goals.
    So, Mr. Chairman, I think I'll stop at that.
    Mr. Davis. Thank you very much, Mr. Marchant.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. Let me thank all five 
agencies for the preparation of this report. I think it is well 
documented. That's why I'm wearing glasses so I can read the 
small numbers, too.
    Let me make several observations and then I'll have a 
couple of questions, but one is that all agencies I think must 
do a better job of putting minority workers on track for 
promotion. If they are in the agencies, then the culture of the 
agency dictates that they stay on track and move up through the 
ranks.
    Another observation is that agencies should strive to 
maintain equivalent levels of work force. That's in the SES, 
that's in the GS-15 or equivalent. Otherwise the managerial 
chart is lopsided in comparison to the overall work force, 
which is part of the first point.
    Mr. Ogden at GPO, let me just recommend that--or warn the 
IGs that agencies should not pass over employees that have been 
waiting in the wings for a fair shake for years for a 
promotion. You reference the deficiencies among Asians and the 
disabled. I would suggest the IGs remain vigilant in regard to 
allowing agencies and--to not allowing agencies to pass up long 
serving minority employees for promotion too. I will let you 
respond if we have time.
    Ms. Bates, on the AOC, I notice that you had a decrease in 
minority level in the SES pool. Let me suggest that the new 
CVC, visitor center, is coming on-line and it may be that we 
may want to start off correctly in that new facility with 
minorities in decisionmaking position as far as this new 
facility is concerned. This way we don't get behind the 
proverbial 8 ball so to say and not having numbers that are 
reflective of your work force. You have a 51 percent minority 
work force, yet it is not reflected at the SES or the GS-15 
level. And that's one recommendation.
    Let me ask then is it possible, I'm curious, could we get a 
breakdown of the numbers, a racial breakdown of the numbers of 
women who are on track for SES? The whole percent of women in 
SES and GS-15, could you provide this committee with the 
numbers, the racial breakdown of the women in that category 
racially; is that possible?
    Mr. Schornagel. Isn't that in the report already? I thought 
we had a table to address that.
    Mr. Clay. I see percent of women and then you've got three 
subcategories, the work force, SES and GS-15. Is there a 
breakdown of women? I was curious about the percentages of 
women, like at AOC you have 25 percent female work force. Then 
you have 33 percent in SES and then GS-15 is 23. Can you get a 
racial breakdown?
    Mr. Schornagel. Is page 8 the consolidated information you 
are looking for?
    Mr. Clay. Page 8.
    Mr. Schornagel. Or page 7?
    Mr. Clay. Does it give us total women, too?
    Mr. Schornagel. It gives gender breakdown and racial, 
ethnic group breakdown by agency.
    Mr. Clay. GPO has one female.
    Mr. Schornagel. Over 5 years.
    Mr. Clay. 23. No, I mean of the total work force, racial 
breakdown of the total female work force, can you give us that?
    Mr. Schornagel. The racial breakdown?
    Mr. Clay. Yes, of the total female work force.
    Mr. Schornagel. No, I don't believe we have that.
    Mr. Clay. Well, can you provide that to this committee?
    Mr. Schornagel. Yes, I think we can do that with the 
cooperation of the other agencies, yes.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Clay. Go ahead, Mr. Ogden. Did you have a response----
    Mr. Ogden. Yes, Mr. Clay. I believe we have provided that 
information in one of our attachments to our report. We have a 
complete breakdown of the entire work force. Just one of the 
distinctions at GPO is we have a fairly significant blue collar 
work force as well as a large white collar work force, too. 
Those numbers are broken down, and in the back of our report--
I'm looking right now.
    Mr. Clay. In this one, right?
    Mr. Ogden. Page 26 of our report.
    Mr. Clay. Page 26. You did understand what I was asking in 
regards to----
    Mr. Ogden. I did understand what you were asking 
previously, Mr. Clay, as well. Under the circumstances, as you 
know, we don't get involved in any complaints to this--with 
respect to the issue of whether or not people are being passed 
over. That information wouldn't necessarily come to our office. 
We didn't look specifically at that particular issue in the 
numbers of people that have alleged being passed over. But 
certainly it is an important issue for the agency to address, 
to ensure that everyone is being given a fair opportunity.
    And I think that one of the things you also discuss though, 
and also Mr. Marchant, was the importance of expanding the 
pool, so to speak, and ensuring that the outreach is there. One 
of the recommendations that we did make is that our EEO office 
does get to go to universities and do outreach in historically 
black universities and Hispanic universities to try to enlist, 
you know, interest in the Government Printing Office and in the 
work that we have coming up available and such. What we've 
recommended is they now develop some tracking mechanisms to 
ensure that those methodologies are actually coming to fruition 
and proving, you know, fruit.
    The other issue is to think much more broadly and to expand 
those horizons, and I think those are issues that we are 
certain that we have encouraged the agency to look at, and the 
EEO office has indicated they are looking to expand those 
opportunities as well.
    Mr. Clay. And that's the point I would like to stress, that 
when they come back to you with their affirmative action plans, 
that just don't let them off the hook, so to say, on an entire 
group or subsection of that work force that's been there for 
years that have played by the rules and done everything right 
and have been passed over for promotion. Don't let them off the 
hook.
    Mr. Ogden. Yes, sir.
    One other I guess comment, too, is that diversity, as you 
mentioned, Mr. Marchant and also Mr. Clay, is it is a cultural 
issue, it is not just a numbers issue. And that's why it's so 
important that the breadth of the conversation be enlarged and 
that the outreach efforts be made.
    Thank you.
    Mr. Clay. Thank you so much, Mr. Ogden, and to clarify, Mr. 
Chairman, if I may, for all of the other agencies, if they 
could breakdown for the subcommittee the racial breakdown of 
the total female employment force.
    Mr. Davis. If they would do that, we would appreciate it.
    Mr. Clay. Thank you.
    [Note.--The report entitled, ``Compilation of Legislative 
Branch IGs' Reports on their Respective Agencies' Diversity 
Programs for FY 2007,'' can be found in subcommittee files.]
    Mr. Davis. Thank you very much, Mr. Clay. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
go to Mr. Ogden first. I was just thinking about how at the 
Government Printing Office--I used to work for the Government 
Printing Office as a student at Howard University 35 years ago, 
and I was thinking about the work force and looking at these 
figures where 59 percent--well, basically 60 percent of the 
work force is minority and then when you look at the SES figure 
it is 11.5. Are we to draw any conclusions on that?
    Mr. Ogden. Um, I think that the----
    Mr. Cummings. Maybe I'm leading you down a road that you 
don't know where you're going. Let me shine a little light on 
it. When the ranking member asked his question about whether 
people had the educational requirements to do certain things 
and whether they were coming out with the kind of degrees and 
whatever. You know, I did a journey back to when I was there at 
the Government Printing Office and we were students working 
from about--and I don't know whether they still have this 
program or not, but we would working from about 10 at night to 
6:30 a.m., and the money was good, two nights a week. But there 
were a lot of very frustrated people who were permanent 
employees there who basically could not see themselves moving 
up. Many of them had a good education, a lot of them felt that 
they had been passed over--my time can't be up, Mr. Chairman--
oh, oh. I was just getting warmed up. And they were passed 
over, they felt that they were passed over. And I guess I just 
wonder, you know, when we're looking at all these numbers, and 
if you went to any group, any barber shop or you talked to any 
group of people working for an agency like this, what you will 
hear are some stories that, if assuming they are true and many 
instances they are, are very painful, because so many people 
feel like they've been invisible.
    Let me tell you what you'll hear a lot, the people came in 
and then they were under me; I trained them and then they 
became my supervisor. I see people in the audience nodding 
their heads. I'm just wondering taking that into consideration, 
are we pulling on the work force that we have? In other words, 
are we passing them by to get to some other folk who, you know, 
since you have a pool, you have a big pool there, what happens 
to them, do they stay there and then die or retire? Can you 
help me with that?
    Mr. Ogden. Mr. Cummings, I believe you raise some very 
valid points. And unfortunately, in my office we didn't look at 
any of those particular issues in this report. And some of the 
issues you raise are really imperatives for the agency to 
address and for our office to assist in the manner in which it 
is appropriate for our office to do so in that regard. I think 
that this report is valuable in that we've made recommendations 
and the agency has concurred with those recommendations that 
will hopefully address some of the long-term systemic issues 
and will again help create a much more diverse pool.
    Mr. Cummings. Give me three recommendations that would go 
to what I just said, off the top of your head.
    Mr. Ogden. One is developing a plan of action with respect 
to their diversity outreach and the diversity within the 
agency; having a solid plan is going to be an imperative. 
Incorporating diversity as a basic tenet of the strategic 
planning process of the agency. I mean those two are 
fundamentally. And three is ensuring that the agency head take 
annual and a regular commitment to the responsibility for 
diversity in the work force.
    Mr. Cummings. You know I remember, I think it was this 
subcommittee, maybe it was called something else, but I 
remember every year we had one time some folk from these 
private corporations that they are entitled the best places to 
work. And one of the things that was consistent with them is 
they had excellent diversity plans, and another consistency 
within those plans was that they promoted people based upon 
their supervisors, based upon their ability and outcomes of 
having a diversified work force with regard to promotions. Is 
that a part of anything that you all are doing, any of you all? 
You just talked about the plan, that you've got to have a plan; 
is that part of it?
    Mr. Ogden. Yes, I believe so. And--yes, it is an 
imperative.
    Mr. Cummings. You seem confused.
    Mr. Ogden. The plan of action is an imperative. And again 
it is one of the recommendations not only in MD-715 but in the 
GAO best practices. It is the recommendation that we've made to 
the agency because we feel, you know, in the IG that it is an 
important aspect. And the agency has responded back in the 
affirmative, but I will let them address specific----
    Mr. Cummings. I understand. The other thing I want to say 
is this, is that when people get passed over, it is not just 
them that get passed over, their families get passed over too, 
because of things they could be doing for their families, the 
schools that your children go to, that they would like to send 
their kids to, they don't have the resources and when they 
should have had the resources. A lot of people don't think 
about it like that, but it is real. And I just, you know, I 
think these kinds of--whatever you have come up with, I think 
it is important that these agencies strive to make sure they 
happen.
    Yes, on the end.
    Mr. Schornagel. I want to mention that one of the things 
that we have recommended in our individual report is that the 
Library evaluate the success of its programs. I think that's a 
very, very important thing for all agencies. How are these 
programs working? You can say you have all these programs in 
place, but if you can't afford to fund them, if you don't know 
whether they are resulting in any difference, then, you know, 
you might be just spinning your wheels.
    Mr. Cummings. My mother calls it motion, commotion, 
emotion, and no results.
    Thank you very much, Mr. Chairman.
    Mr. Davis. Thank you very much, Mr. Cummings.
    Let me just continue for a minute. Has any of your agencies 
done any analysis to identify barriers to the advancement of 
hiring women, minorities or people with disabilities? Any 
agency done any study to look at barriers that would prevent 
individuals from moving?
    Ms. Bates. I don't know if the agency has done a study of 
the barriers; however, I would like to note that when an 
applicant applies for a job, whether or not they check their 
race is an optional feature. So despite an agency's attempt to 
get a diverse applicant pool, the selection officials may or 
may not know the true makeup of the pool, and that would be one 
barrier to hire more women and minorities.
    Mr. Davis. Anything, any of the other agencies?
    Mr. Schornagel. The Library has agreed based on 
recommendations to conduct those barrier analyses. And one of 
the things that we also recommend and that the Library agreed 
to is to conduct exit interviews to find out why people are 
leaving the Library. It is something that was done quite a 
while ago but it was stopped. But I think it could possibly 
provide some valuable information.
    Mr. Davis. Then I would like to ask if each one of the 
agencies would take a look at what barriers may be existing 
that would prevent us from making more progress than what it 
appears that we have made. It seems to me that we've been 
discussing diversity ever since I've been an adult, at least I 
have, every place that I've ever been. And we still, while 
we've made some progress, it seems to me that the pace is much 
slower than what the pace has to be, especially if we put a 
real focus on it. And that's certainly what we hope to do and 
it is what I hope to do in this subcommittee, not only for 
certainly the rest of this year, but I would suspect I'm going 
to be chairman of it next session as well. And it's one of the 
areas that I just find very difficult to understand, especially 
as we've talked about goals, as we've talked about approaches, 
as we've talked about ways to do things. It just seems to me 
that we are still so contradictory and have not found a way to 
do it. And so I would appreciate it if you would take a look at 
those barriers.
    Ms. Garcia. Mr. Chairman, the GAO has taken two giant steps 
regarding that. One element is the new diversity work force 
plan which identifies barriers. And the other one is the pay 
disparity review that the Ivy Planning Group did for us on 
African Americans. While they concentrated on African 
Americans, the recommendations will apply to all minorities. 
And GAO is in the process of starting conversations with staff 
which will be mandatory on race.
    So I'm very optimistic that by this time next year there 
will be some improvements in GAO's work force diversity plan 
because we now have a road map and something to compare 
ourselves to.
    Mr. Davis. Well, thank you very much.
    Mr. Marchant, do you have any additional questions or 
comments?
    Mr. Marchant. No, sir.
    Mr. Davis. Mr. Cummings.
    Then thank you very much. We appreciate you being with us.
    Ms. Garcia. Thank you, Chairman.
    Mr. Davis. As we transition to our next panel, I will 
identify them. Our panel 2 witness list consists of Ms. Teresa 
Bailey, who is the Director of the Equal Employment Opportunity 
and Conciliation Program at the Architect of the Capitol, which 
provides internal Architect of the Capitol procedures for 
claims of alleged employment discrimination based on race, 
color, sex, national origin, age, religion or disability and 
for claims of EEO-based retaliation.
    We also have Ms. Gloria Jarmon, who is the Chief 
Administrator Officer for the U.S. Capitol Police where she is 
responsible for financial management, information technology, 
human resources management, and facilities management. Prior to 
this she was the Managing Director for Congressional Relations 
at the U.S. Government Accountability Office.
    We have Mr. Ronald Stroman, as the Managing Director for 
the Office of Opportunity and Inclusiveness for the Government 
Accountability Office. The office manages GAO's Equal 
Employment Opportunity [EEO], program counseling and GAO's 
former discrimination complaint process. The Office of Economic 
Opportunity and Inclusiveness also operates the agency's early 
resolution and mediation program by helping managers and 
employees resolve workplace disputes and EEO concerns without 
resorting to the former process.
    We have Ms. Nadine Elzy, as the Director of the Office of 
Equal Employment Opportunity for the U.S. Government Printing 
Office. Ms. Elzy directs the activities of the affirmative 
programs and counseling and complaints processing divisions 
within the office. She has 20 years of Federal experience, most 
of it within the area of equal employment opportunity. Thank 
you.
    And Ms. Stephanie Ruiz is the Director of Human Resources 
and Equal Opportunity Office at the Congressional Budget 
Office. Prior to joining CBO, Ms. Ruiz was the Assistant 
Director for the Employee Relations at Georgetown University's 
McDonough School of Business and was the Human Resources 
Administrator at Sampson. Thank you very much, Ms. Ruiz.
    And Mr. Jesse James, Jr. is the Acting Director for the 
Office of Workforce Diversity in the Library of Congress, a 
position that he has held since February 2008. Prior to his 
appointment as the Acting Director of the Office of Workforce 
Diversity, Mr. James held a position of Associate General 
Counsel in the Library's Office of General Counsel, where he 
managed and supervised the Litigation and General Law Sections 
of the Office of General Counsel.
    Let me thank you all. If you will join with me, I will 
extend the oath. It is the procedure of this committee that all 
witnesses be sworn in, so if you'd raise your right hands.
    [Witnesses sworn.]
    Mr. Davis. The record will show that the witnesses answered 
in the affirmative. Let me thank all of you for being here with 
us this afternoon. Our usual procedure is to take 5 minutes of 
summation of your written testimony. The entire written 
statement will be included in the record. The green light 
indicates the full 5 minutes are available, the yellow lights 
indicates we are down to 1 minute, and of course the red light 
indicates time is up and we would then proceed to questions.
    Thank you very much, and we will begin. Ms. Bailey.
    Ms. Bailey. Mr. Chairman, Congressman Marchant, members of 
the subcommittee--is it on?
    Mr. Davis. I think you may need to hit that button.

    STATEMENTS OF TERESA BAILEY, DIRECTOR, EEO/CONCILIATION 
  PROGRAM, ARCHITECT OF THE CAPITOL; GLORIA L. JARMON, CHIEF 
 ADMINISTRATIVE OFFICER, U.S. CAPITOL POLICE; RONALD STROMAN, 
  MANAGING DIRECTOR, OFFICE OF OPPORTUNITY AND INCLUSIVENESS, 
 U.S. GOVERNMENT ACCOUNTABILITY OFFICE; NADINE ELZY, DIRECTOR, 
    OFFICE OF EQUAL EMPLOYMENT OPPORTUNITY, U.S. GOVERNMENT 
  PRINTING OFFICE; STEPHANIE RUIZ, DIRECTOR, HUMAN RESOURCES, 
   CONGRESSIONAL BUDGET OFFICE; AND JESSE JAMES, JR., ACTING 
  DIRECTOR, OFFICE OF WORKFORCE DIVERSITY, LIBRARY OF CONGRESS

                   STATEMENT OF TERESA BAILEY

    Ms. Bailey. Thank you for this opportunity to discuss the 
AOC's diversity management program and our efforts to identify, 
attract, hire, promote and retain a diverse work force. Respect 
and diversity are among our agency's core values.
    The AOC values our employees' individual differences and 
the very backgrounds, talents and skill they bring to their 
jobs. Our commitment to Equal Employment Opportunity is strong 
and we have marked a number of achievements in the past year.
    Mr. Chairman, I am pleased to report that the Architect of 
the Capitol recently implemented its first affirmative 
employment program. As noted in the AOC's Inspector General 
report, this order, ``will form the basis and framework for 
success in the resolution and removal of barriers impacting the 
diversity management program and the under representation of 
women, minorities and persons with disabilities.''
    This program assures that job applicants and employees 
looking to advance professionally are considered fairly and 
equally. Its primary component will be a plan delineating 
action-oriented strategies and measurable goals to increase our 
work force diversity. The program puts into action our 
longstanding commitment to equal opportunity in every area of 
employment.
    We are also implementing our first reasonable accommodation 
policy for persons with disabilities which formalizes 
procedures to accommodate the needs of disabled employees and 
prospective employees. The AOC also provides mandatory EEO 
training for all supervisors and managers, and we are looking 
to expand this training to include diversity training for all 
AOC employees.
    In addition to continuing to development existing talent in 
our agency, we are conducting a comprehensive work force 
analysis. The information gathered will help us to better focus 
our recruiting and hiring efforts. While the representation of 
women and minorities in our senior level positions remain the 
33 percent and 18.5 percent respectively, these percentages 
demonstrate a significant increase over our 2002 levels.
    As of August 15th, minority representation in the GS-15 
theater pool has increased from 12.8 percent to 18 percent, and 
for the number of women has increased from 23.1 percent to 25 
percent.
    The IG's report also noted the importance of establishing a 
diversity network between the AOC and other EEO diversity 
directors to share best practices and discuss critical issues 
we have in common. I am pleased to note that my peers on this 
panel agree and welcome the opportunity to strengthen our ties 
and work together toward common goals.
    Last, the report highlighted personnel practices in other 
areas that merit attention. We have developed an action plan to 
address a number of these issues and are working to expand 
programs or policies already in place.
    As I noted last November, we advertise our career 
opportunities nationwide through a wide and diverse number of 
Web sites, newspapers and professional networks and 
associations. We also continue to actively participate in 
recruitment events to increase awareness of job opportunities 
with our agency.
    In addition, we recently advertised positions in our 
Architect's mobility program. This program offers career 
opportunities for high potential employees who are currently in 
career limiting positions and lack the experience to enter 
other AOC career fields. Participants are provided on-the-job 
training and formal classroom training. The program will assist 
us in increasing diversity in established career fields, while 
providing an exciting path for the participants.
    We are also participating in Operation Warfighter, the 
Defense Department's program for service members convalescing 
at military treatment facilities in the Washington area, many 
of whom were stationed in Iraq and Afghanistan. This program 
enables us to benefit from the considerable talents of these 
soldiers and to affect their recuperation by providing a 
positive work environment. To date five service members have 
worked with us in a variety of jobs.
    Although we have made great progress, we recognize we still 
have work to do. The AOCis deeply committed to our goal of 
attracting and retaining a diverse work force, and this 
commitment began at the top of our organization. We all benefit 
from a workplace that brings together people with different 
backgrounds, skills, experiences and perspectives, and we are 
diligently working to further increase the diversity in our 
work force and in particular among our senior level management.
    This concludes my statement. I would be happy to answer any 
questions that you may have.
    [The prepared statement of Ms. Bailey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. Thank you very much, Ms. Bailey, and we will 
proceed to Ms. Jarmon.

                 STATEMENT OF GLORIA L. JARMON

    Ms. Jarmon. Chairman Davis and members of the subcommittee, 
thank you for the opportunity to appear before you today to 
discuss diversity within the work force and especially within 
the senior levels of U.S. Capitol Police. I assure you the 
Chief of the U.S. Capitol Police and his executive team are 
totally committed to the continued improvement of the 
Department's work force diversity, including our requested 
funding for a diversity officer in fiscal year 2009. We also 
intend to have a formal written diversity policy in fiscal year 
2009.
    Despite the lack of a formal equal employment office or a 
diversity office we believe that the Department's made 
significant improvements in recent years and achieve strong 
female and minority representation within the Department's work 
force and its senior level staff relative to the Federal and 
civilian work force.
    That said, we also know that we need to improve the 
representation of females and specific minority staff 
throughout the Department, especially in our sworn and senior 
level staff, and we will continue to seek new approaches toward 
achieving these goals.
    As of the end of August the Department's on board staff 
total 2,010, 350 civilian and 1,660 sworn. Of these about 23 
percent are women and about 39 percent are minority staff. 
Minority representation among our senior level staff has 
improved in the past fiscal year from about 14 percent to 22 
percent, while our female representation at a senior level has 
experienced a slight decline from about 28 percent to 22 
percent.
    We are encouraged by the increasingly diverse composition 
of our senior level developmental pool, which will provide the 
Department with a trained and experience cadre of minority and 
female inspectors, captains, and civilian managers from which 
to draw into our senior level positions going forward. This 
developmental pool has increased its representation of 
minorities by 5 percent and of women by 2 percent in the 
current fiscal year.
    Much of our success can be attributed to our aggressive 
recruiting plans, which includes universities, colleges and job 
fairs throughout the country targeted toward women and specific 
minority populations and also targets returning veterans. In 
addition, we have used participation in senior level 
developmental training programs to improve the representation 
of women and minorities in our senior levels.
    Our Strategic Capitol Plan draft has been completed and is 
being reviewed before final issuance. We intend to update the 
strategic plan with fiscal year 2008 data as appropriate and 
view this plan as a living document through which we will be 
able to set that recruitment, retention, advancement and 
succession planning goals, measure our progress in meeting them 
and make adjustments as warranted.
    Diversity representation is an integral part of this plan, 
and we intend to fully implement it early in fiscal year 2009.
    Within the U.S. Capitol Police discrimination complaints 
are investigated by our Office of Professional Responsibility. 
That office in was currently investigating seven cases of 
alleged violations of our policy on anti-discrimination, anti-
harassment.
    In response to our recent Inspector General report on our 
work force diversity we are reconsidering the appropriate 
office to perform legal sufficiency reviews in consultation 
with the Capitol Police Board for all of the Office of 
Professional Responsibility cases involving grievance or 
discrimination complaints.
    Currently our Office of Employment Counsel conducts these 
reviews in addition to representing the Department or the 
Capitol Police Board should the case make its way to court. In 
conjunction with new directives on discipline, dispute 
resolution and grievance procedures, we will determine the best 
process to avoid any appearance of conflict going forward. We 
expect to make these sound determinations and issue these 
directives in the near future.
    We appreciate the attention this subcommittee has focused 
on this issue within the Department and are working diligently 
to address the IG's recommendations related to this issue.
    Mr. Chairman and members of the subcommittee, this 
concludes my statement. I will be happy to answer any questions 
you may have.
    [The prepared statement of Ms. Jarmon follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. Thank you very much. And we will go to Mr. 
Stroman.

                  STATEMENT OF RONALD STROMAN

    Mr. Stroman. Thank you, Mr. Chairman and Mr. Marchant. 
First of all, we agree with all of the Inspector General's 
recommendation and we have moved quickly to implement them. We 
have instituted internal controls for our tracking and case 
processing. We are amending our complaint to clarify 
responsibilities when we move cases from our office to another 
office, and we are making it clear in our order that our 
diversity plan will be done on an annual basis.
    We appreciate the Inspector General's recognition of the 
gains that have been made at the managerial ranks. African 
Americans exceed the civilian labor force at the SES level, as 
well as the GS-15 equivalent level. Asian Americans exceed the 
civilian labor force at the SES. We've had a 53 percent 
increase in the percentage of Hispanics in our managerial 
ranks, and women have, you know, had tremendous growth within 
the agency.
    Although, that being said, Mr. Chairman, we have gaps and 
we recognize that we have gaps, and we have developed what we 
think are plans to address them. We received, as you know, in 
April the Ivy report which had over 20 recommendations. The 
Acting Comptroller General has clarified that we will implement 
all of them and implement them quickly. We have begun that. We 
are having--starting with Ivy's recommendation that we begin 
with a facilitated conversation on race; that is, given the 
impact that race has in terms of performance related dialog and 
conversations, we need to raise this issue directly within the 
agency. So all of our employees, it is mandatory, will be part 
of this facilitated conversations on race that will begin in 
October.
    We are reassessing our entire performance appraisal system. 
To date we have had over 15 interviews at the managerial level. 
We have had 30 task forces of GAO employees involved in this 
reassessment. Of those, 37 have been specifically targeted on 
issues of diversity. We have had African American--looking at 
African American issues, Hispanic issues, disability issues, 
gay and lesbian issues within the agency.
    With regard to reviewing our standards for appraisal 
reviews, the Ivy report suggested that we standardize those. We 
have done that. We have met and created standard processes for 
all of our teams with regard to performance appraisals. Ivy 
recommended that we expand the mentoring program to include our 
PDP staff. We have expanded the mentoring program in the last 
several months.
    Ivy suggested that we begin to track the ratings of our PDP 
staff at the same level that we are tracking the ratings of our 
analysts. We have instituted a tracking process and we have 
begun the process of tracking.
    Ivy suggested mandatory DPM training; that is, that we 
train our analysts who are reviewing and assessing our 
analysts. We have instituted mandatory DPM training. We are 
having training for the development of self-assessments within 
the agency. We have established a task team to review the way 
in which we do recruiting, where we go to recruit, who is 
involved in the recruiting process, and the establishment of a 
diversity recruitment plan. This is ongoing, Mr. Chairman.
    We have taken steps to implement what Ivy suggested was to 
institute an upward feedback tool, similar to a 360, so that 
our staff can assess the performance of managers. We are in the 
process of doing that.
    We have established a diversity committee, and that is made 
up of all of the diversity groups within the agency, African 
Americans, Hispanics, Asians, people with disabilities, and 
indeed our union, and we are consulting with them as we are 
implementing all of these changes.
    We have developed, as the IG testified, a work force 
diversity plan which is directly consistent with Managing 
Directive 715 by the EEOC. And we did a data analysis of our 
work force, we did a barrier analysis, and then we had 
recommendations. And with regard to those recommendations, we 
not only had recommendations, but we had timeframes under which 
those recommendations will be implemented so that we can hold 
ourselves accountable.
    In sum, Mr. Chairman, we understand that we have gaps in 
the diversity of our office. We have a plan. We are moving 
quickly to implement all of the Ivy recommendations. We are 
monitoring our work force diversity plan and we believe we will 
be able to show progress as consistent with what--the IG's 
testimony.
    Thank you.
    [The prepared statement of Mr. Stroman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. Thank you very much, Mr. Stroman. And we will 
proceed to Ms. Elzy.

                    STATEMENT OF NADINE ELZY

    Ms. Elzy. Good afternoon, Mr. Chairman and members of the 
subcommittee. Thank you for inviting the Government Printing 
Office to be here today. I am Nadine Elzy, the GPO's Director 
of EEO. My prepared statement has been submitted for the 
record, and with your permission I will summarize my remarks.
    We have reviewed the Inspector General's report and concur 
with the recommendations. I am sure these recommendations will 
be submitted to the Public Printer for his review and 
consideration. I believe that the recommendations will have a 
positive impact to create a more diverse GPO in the future.
    I would like to point out that even though GPO was not 
required to comply with MD-715 that it is noteworthy that we as 
an agency have already adopted many of these elements and feel 
that these initiatives have assisted us in our diversity 
efforts.
    I am also very glad to be here to testify before you today, 
because I'm excited to report that since we--I was last here in 
November, we have made additional gains. We have in the Senior 
Level Service since my appearance here, we have one additional 
female and two additional minorities at a senior level. At that 
time GPO had three females in SLS positions, we now have four, 
which is 15 percent of the SLS population. We also now have 
four minorities in SLS positions.
    Last fall 29 percent of Grade 15 positions were held by 
females. Now 32 percent of positions at the Grade 15 are held 
by females. Also minorities comprised 32 percent of the Grade 
15 at the end of 2007; minorities have now grown to comprise 34 
percent of employees at a Grade 15.
    One of the things I would like to point out is in 2002 we 
had 1 female in the Grade 15, now we have 24. In 2002 we had 6 
minorities in the Grade 15, now we have 26. This demonstrates 
small but steady strides that GPO is making to increase its 
diversity at the higher grade levels.
    We also are continuing with our efforts to place qualified 
minorities and females in positions at the Grade 13 to 14, 
which will prepare them to become GPO's future leaders. The 
Public Printer has personally demonstrated his commitment to 
increasing diversity. Commitment comes from the top and flows 
down. In a recent Public Printer meeting Mr. Tapella expressed 
the importance of diversity and his support. He encouraged our 
continued outreach to colleges and universities.
    GPO has developed a college recruitment plan for fiscal 
year 2009 that again includes colleges and universities that 
will strengthen our applicant pool with highly qualified 
diverse candidates. These colleges include Florida A&M 
University, the University of Texas El Paso, the University of 
New Mexico, and Berkeley. We have expanded our recruitment to 
include organizations such as the National Association of Black 
MBAs. We truly realize the importance of a diverse work force.
    We will also again be recruiting at the national 
institute--Technical Institute of the Deaf in an effort to 
ensure that our organization is representative of this 
country's diversity.
    EEOC has indicated that the percentage of people with 
disabilities in the Federal Government is decreasing, but we 
still rank as one of the top Federal Government employers for 
people with disabilities. As of September 8, 2008, the U.S. 
Government Printing Office had a work force of 2,398 employees. 
Of this total almost 7 percent are employees with a reportable 
disability and almost 2 percent are individuals with targeted 
disabilities. Most Federal agencies have less than 1 percent of 
employees with targeted disabilities. These employees work in 
various business units throughout our agency.
    During this fiscal year we have also become actively 
involved with the Coming Home to Work Initiative. Through this 
initiative with the Veterans Administration, eligible service 
members and veterans are placed in positions at the Government 
Printing Office to gain valuable experience. The first 
participants reported to work this month.
    We have also developed other efforts to ensure that GAO's 
supervisors and managers knows the agency's perspective on 
diversity and equity in the workplace. During this fiscal year 
myself and the Deputy EEO Director have been meeting with each 
business union manager to have an in-depth discussion on their 
organization's diversity and other EEO-related issues. During 
these meetings we discuss their current work force statistics 
and possible strategies to address any noted imbalances.
    Again we are involved with EEO at GPO and most especially 
Public Printer Tapella clearly recognizes the significance of 
attaining diversity in GPO's management ranks, and we are 
firmly committed to achieving this goal. I am proud to be a 
part of an agency that is moving forward with great speed in 
the right direction, and again I would like to emphasize my 
personal commitment to attain this objective. GPO is an 
organization that wants to utilize the skills and abilities of 
all of its employees to move us forward in the 21st century.
    Mr. Chairman and members of the subcommittee, this 
concludes my prepared statement, and I will be pleased to 
answer any questions you may have.
    [The prepared statement of Ms. Elzy follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. Thank you very much, and we will go to Ms. Ruiz.

                  STATEMENT OF STEPHANIE RUIZ

    Ms. Ruiz. Mr. Chairman, Congressman Marchant and members of 
the subcommittee, thank you for the invitation to discuss our 
efforts to have a diverse work force at the Congressional 
Budget Office. CBO's leadership shares your interest and 
diversity and, though we have made significant efforts to 
create such a work force, we are not yet satisfied with the 
results of those efforts and continue to seek ways to enhance 
them.
    This afternoon I will address the following key points 
summarized from my written statement, the challenge of 
recruiting skilled staff in the fields necessary to do the 
analysis CBO prepares for the Congress, CBO's effort to recruit 
a diverse work force recent addition to those efforts, and 
recent progress toward greater diversity in the agency's work 
force.
    As you know, CBO employs individuals with very specialized 
skills to do the complex economic and budgetary analysis the 
agency is charged to do for the Congress. More than two-thirds 
of our professional staff hold Ph.D.'s or Master's Degrees, and 
as a result of these specialized skills the demographics of the 
qualified candidates pose a significant challenge in creating a 
diverse staff.
    According to the most recent survey of earned doctorates, 
approximately 1,000 people earned Ph.D.'s in economics in 2006. 
Only 30 percent of those new Ph.D.'s in economics were women. 
And even more dramatic, of those who came into the labor market 
only 6 percent were identified as members of a minority group. 
That is 60 people in the entire Nation. Those numbers are even 
more disheartening when you note that 14 percent entered 
government service in that population.
    The demographics of Master's level graduates are somewhat 
less of a problem. According to data from the National 
Association of Schools of Public Affairs and Administration, 
those completing Master's Degrees in 2007 were 58 percent 
female and 31 percent minority.
    In the face of the demographic challenges we have, CBO must 
be both aggressive and creative in its efforts to reach out to 
women and minority candidates.
    A few examples of how we target our recruiting are sending 
mailings to Historically Black Colleges and Universities, 
HBCUs, and Hispanic-serving institutions, HSIs, that have 
populations from which we can draw candidates; visiting myriads 
of college campuses, including HBCUs, HSIs, and large campuses 
with diverse student populations, and contacting the American 
Indian Graduate Center to provide Native American candidates 
information about CBO opportunities.
    CBO also manages a summer internship program with an eye 
toward diversity. For example, 63 percent of our interns were 
minorities and 38 percent with women. In addition to the 
substantive work these students do, the program introduces them 
to the challenge and reward of public service. Our goal is for 
them to consider CBO employment upon graduation, and 
considering 7 percent of our current work force are former 
interns, I think we are doing OK there.
    Despite our small size, we devote considerable effort to 
grass roots recruiting; that is, seeking to enlarge the pool of 
female and minority candidates in the populations from which we 
recruit. Data indicate that most students who pursue a 
doctorate in economics also studied economics as an undergrad, 
and so CBO, although we don't hire very many analysts with just 
a bachelor's degree, engages in various recruitment activities 
to introduce undergrads to the ideas of pursuing a Ph.D. In 
economics or a master's in public policy, and to acquaint them 
with the types of government careers to which those paths may 
lead.
    For example, we make special efforts to present to groups 
such as Moorhouse Filman's joint economics clubs, and to Howard 
economics majors every year. We also participate annually in 
two national programs, the Public Policy Institute and 
International Affairs Program, and the American Economic 
Association's summer program and minority scholarship program. 
Both of these are national programs focused on preparing 
students of underrepresented groups for advanced degrees in the 
areas from which we recruit.
    In short, few students from underrepresented groups 
complete advanced degrees in economics and public policy. We 
have little hope of recruiting CBO staff representative of the 
Nation's rich diversity.
    Recent additions to our program since the subcommittee's 
hearing last November have been many. I will share a few of 
them. Dr. Peter Orszag, our director, and deputy director 
Robert Sunshine make diversity a principal topic of the CBO 
management conference in January, emphasizing CBO's unequivocal 
commitment to diversity, highlighting the challenges we face, 
and encouraging vigorous and creative efforts toward that goal. 
We followed up with CBO's staff to communicate our efforts and 
solicit suggestions to improve diversity, and we have 
implemented a number of those suggestions.
    We implemented a tracking system that identifies candidate 
CBO interviews, and in several cases the director and deputy 
director have declined to consider making job offers until 
there was additional diversity amongst the candidates 
interviewed.
    Dr. Orszag has developed personal efforts to develop new 
recruitment opportunities. Among them, he contacted permanent 
economists, who were minorities, to solicit assistance. One of 
those contacts resulted in identifying a new program designed 
to address the underrepresentation of minorities in public 
policy research. We were able to make a presentation to that 
program's initial class, and several CBO staff shared one on 
one about CBO's work and job opportunities with those students. 
He telephoned the deans of top programs offering Ph.D.s in 
economics and master's degrees to emphasize CBO's interest in 
recruiting their strong minority students.
    Though there are many more other recent additions, I will 
wrap up with the seminars that we provided to the fellows of 
the Congressional Black Caucus Foundation and the Congressional 
Hispanic Institute this past summer, as we hope to make those 
staples of our annual recruiting events.
    Most important to these efforts are progress. Like his 
predecessors, Dr. Orszag is committed to diversity. In his 
short tenure, 52 percent of the staff hired at CBO have been 
women and 17 percent have been minorities. Looking forward, if 
we include those who are scheduled to start work at CBO in the 
next month, that 17 percent minority number goes to 23 percent. 
Since last year, we have increased the share of employees who 
are women and the share of professional positions filled by 
women by about 2 percentage points, to 42 percent. The shared 
employees from minorities remains essentially unchanged at 
about 13 percent. And as for executive-level positions, the 
share filled by women and minorities both increased by nearly 3 
percentage points.
    This improvement has occurred despite the fact that our 
minority staff members are often highly sought after. And with 
CBO's small staff size, the gain or loss of a few staff members 
can significantly affect our numbers.
    In conclusion, CBO's most valuable resource is a strong 
staff, and to that end we dedicate a great deal of time, 
effort, and resources to the agency's recruitment program. An 
important focus of that program has been and will continue to 
be the recruitment of a diverse work force. Though we are 
pleased with our progress, we take seriously our need to 
continue the improvement and diversity of our staff. I will be 
happy to take whatever questions you may have.
    [The prepared statement of Ms. Ruiz follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. Thank you we have. We have four votes. 
Fortunately, they are 5-minute votes. So if you can remain, we 
would appreciate it, and we should return in about 20 minutes.
    [Recess.]
    Mr. Davis. Thank you very much. I think we are OK for a 
minute, and I really do appreciate the fact that you all are 
still here.
    And I believe we had gotten down to you, Mr. James.

                 STATEMENT OF JESSE JAMES, JR.

    Mr. James. Yes, sir. Yes, Mr. Chairman.
    Chairman Davis, members of the subcommittee, my name is 
Jesse James, Jr. I am the Acting Director of the Office of 
Workforce Diversity at the Library of Congress, a position 
which I have held since February 2008. Prior to this 
appointment, I had retired from the Library's Office of General 
Counsel, where I managed and supervised the litigation and 
general law sections of the Library for approximately 8 years. 
Thank you for the opportunity to update you on the status of 
our efforts to increase staff diversity throughout the Library 
of Congress and specifically within the senior level 
management.
    For the fiscal year ending September 30, 2007, the 
Library's total work force of 3,786 consisted of 55.2 percent 
women and 45.6 percent minorities. Of the total of 95 senior 
level executives, 43.2 percent were women, and 21.1 percent 
were minorities.
    With respect to the feeder positions of GS-13 through GS-15 
pay cluster, who are the Library's future senior leaders, women 
represent 50.3 percent, and minorities represent 25.6 percent 
of those employees. The number of minorities at this level has 
gone from 281 in 2002 to 380 in 2007. While the percentage of 
Hispanics in this group remain below that of the general 
population, the number of Hispanics at the GS-15 level more 
than doubled over the same period of time. The percentage of 
women has remained stable.
    Since your last review of the diversity within the 
legislative branch, the Library has undertaken a number of new 
initiatives. First, our chief operating officer created a 
Library-wide task force to overhaul the Library's hiring 
process for filling senior level vacancies. The Library's 
proposed process incorporates best practices of the private 
sector.
    Second, our Office of Workforce Diversity, which reports 
directly to the Office of the Librarian, is undergoing a major 
reorganization. We expect this new entity will play a more 
effective leadership role in fulfilling our diversity and 
fairness goals throughout the Library.
    As part of the development of the Library-wide 2008-2013 
strategic plan, we link the function of OWD to our overall work 
force goals and objectives. We have provided more details about 
the reorganization in our written statement. The new 
reorganization will address and evaluate the successes of 
programs, analyze barriers, and provide data to management as 
to how to address any concerns that we come in contact with.
    Let me just assure you that under this new plan OWD will be 
better positioned to focus on and identify potential systemic 
barriers to diversity, measuring programs' effectiveness, and 
working proactively to ensure that Library managers continue to 
successfully implement strategies to recruit and retain a 
diverse work force.
    Third, we have expanded our staff development programs for 
Library employees at all GS levels.
    Finally, we have retained an executive recruitment 
consultant to assist us in identifying and seeking highly 
qualified diverse candidates for senior level positions. We are 
using this consultant presently to assist us in filling the 
vacant position of the Law Librarian of Congress.
    While we are working diligently on the recruitment front, 
we find these efforts are undercut by the fact that we are 
falling behind the rest of the Federal Government on senior 
level paid compensation. Our senior professionals trail 
virtually all executive agency level employees in both pay caps 
and aggregate compensation caps. We ask the subcommittee to 
consider the impact on the Library of S-1046 currently before 
this body, and that you assist us in maintaining our position 
as an employer of choice for talented professionals.
    This series of hearings and our reorganization of OWD are 
taking place at a key juncture for the Library. We are 
expanding our internal staff development leadership programs to 
enhance the available pool of applicants in order to have a 
diverse, talented, and qualified work force that we need to 
have everyone in the marketplace participate.
    I am happy to answer any questions the subcommittee may 
have.
    Mr. Davis. Thank you very much.
    [The prepared statement of Mr. James follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. And again, let me just thank all of you for your 
patience and your willingness to be here to share with us.
    Let me just ask, are we all aware of the fact that the 
Office of Compliance offers training and workshops for agency 
personnel regarding workplace rights? We all are aware of that? 
That being the case, what is your opinion of the training? I 
mean, do you think it is helpful or do you have an opinion that 
you would venture? Ms. Bailey.
    Ms. Bailey. I have had the opportunity to attend one of the 
Office Compliance trainings not that long ago. It was a 
training on alternative dispute resolution, and it was good 
information to have in terms of addressing some information 
that we have already known, particularly for those of us who 
are in that profession. But I think overall the training was 
helpful to us.
    Mr. Davis. Anyone else?
    Ms. Elzy. I attended that same training. It was very 
beneficial. The only difference I have from any of the other 
legislative branches is that the Government Printing Office, as 
far as complaints, reports to the Equal Opportunity Commission. 
But the training itself was very beneficial.
    Mr. James. I also had the opportunity to attend, and I 
think I have attended at least twice. And I think it was 
beneficial and helpful, at least in the instances that I 
attended.
    Ms. Ruiz. Equally, at the Congressional Budget Office, I 
attended and I had one of my colleagues from my office attend. 
And the first training they offered on ADR, alternative dispute 
resolution, we had a number of our staff members attend. And 
one of the things that was most beneficial was the exercises 
they did with us at the end and the fact that they bring in a 
variety of different consultants and different perspectives 
into the training.
    Mr. Davis. Did they address EEO diversity issues in any of 
the sessions that any of us may have attended?
    Mr. James. I don't think so.
    Mr. Davis. Do you think it might be helpful if they had a 
structured program where a part of the training kind of 
centered on EEO and diversity kind of concerns that would help 
people to have those issues in mind and recognize them as part 
of workplace expectation?
    Ms. Ruiz. Sir, yes. I think that would be a very beneficial 
thing from a couple standpoints. No. 1, it would provide 
uniform information to all the leg branch agencies. And it is 
also, from the standpoint of the appropriators, who we all have 
some recollection with, the ability for us to capitalize on 
working cohesively together and using money in an appropriate 
way.
    Mr. Davis. Anyone else?
    Ms.Bailey. I concur with what Ms. Ruiz has said. But I also 
think that we also need to consider the right audience. We have 
to target the right audience for those programs. So we need to 
include it and expand it to supervisors and managers of our 
various agencies.
    Mr. Davis. Yes.
    Mr. Stroman. Mr. Chairman, there have been a number of 
studies recently, some done by Harvard University, that have 
shown that some diversity training is not very helpful in terms 
of resolving issues, EEO issues.
    The key, it seems to me, is to have targeted training. That 
is, that you have to have training which is directly targeted 
to the concerns in your workplace, or else you are going 
through an exercise.
    The other thing that their studies have indicated is that 
the training has to be part of a larger package of changes 
within the institution. And if that is kind of what you are 
focusing on, again, you are not going to be successful.
    So I would say two things: that it would be helpful to do 
the training, but they need to do the training targeted to 
specific issues at specific leg branch agencies, and it needs 
to be part of a larger package.
    Mr. Davis. Let me ask. We have talked about success of 
pools, and especially that you have highlighted them, Mr. 
James. Let me just ask, why are these successive pools 
important? And could any of you think of what the impact might 
be, let's just say, if your agency was to promote women and 
minorities in direct proportion to their GS-15 successive 
pools? That if you had as many people above as you had in the 
GS-15 pool, do you see any kind of impact, either negative or 
positive, that would have on your agency?
    Mr. James. Well, I think that if it were possible in a 
world where everything was equal, that you could actually do 
that, I think that it would have positive effects for the 
agency. But some of the discussion that would take place with 
the IGs, I question whether you are going to be able to get 
that, unless you have these schools and others where the people 
coming out of school are going to be equal to that. And if you 
don't have that, then I think that is the thing that affects it 
more than anything else. And I know for a fact that the Library 
is making those efforts, but it is running up against the 
difficulty of finding people to bring into the agencies coming 
out of colleges and places like that. It is going to the 
Historical Black Colleges and making contacts with those 
schools. But as we all know, the numbers coming of minorities 
coming out of colleges isn't as large.
    So I think that is where the problem is. I don't think the 
problem is actually getting them there; the problem is getting 
the numbers in sufficient numbers to put them in the feeder 
pools so that they can come up through that system.
    Mr. Stroman. Mr. Chairman, I think particularly at the SES 
level, that is really where the decisionmakers are. And if you 
have a proportionate representation, I think what you will have 
is two things: One is I think you will have better results as 
an agency. Studies have indicated that when you have a diverse 
workpool, particularly in the leadership level, that your 
solutions are better; that you get more creative, more 
innovative, faster solutions as an agency. So I think that they 
would be better.
    Second, I think that when you are trying to attract people 
to the agency, they are really looking at the leadership. They 
are looking at the leadership to determine whether or not, you 
know, they can get to that point. I mean, one of the things, 
you know, regardless of one's political affiliation, is what 
Senator Obama has done. When they talk to young African 
American kids now, 65 percent said they believe they can be 
President of the United States. Forty percent of white children 
say they could be President of the United States. And I think 
that is a direct correlation between seeing a role model that 
you can model your behavior after. So I think it has tremendous 
potential within each of the agencies.
    Ms. Jarmon. I just wanted to add, at the Capitol Police we 
have been focusing on the successive pool. For us, it would be 
like inspectors, captains on the sworn side; and on the 
civilian side it would be civilian managers. And our numbers 
for that feeder pool are actually higher than the SES 
equivalent group as we have been focusing on development and 
training of that group. And I think it would be helpful in 
years to come as those people are promoted to higher levels.
    Mr. Davis. As I think about, I think of situations where I 
know individuals who are police captains but they never get 
high command posts. I have never been able to quite understand 
it. Of course, this is outside the Federal Government. This 
just happens to be in the Chicago Police Department, which is a 
great big agency. It is a big operation. It is no small entity. 
We have about 3 million people in our city. But I actually know 
people, and we have sort of wondered, I mean, how is this 
person a captain but might be a watch commander, and somebody 
else is a lieutenant and they are a station commander or they 
have some other executive post beyond that. And what kind of 
criteria is being used by the upper levels who make these 
decisions and determinations.
    Well, that is not your problem. It is just something that I 
have thought about.
    Well, let me just thank you all very much. We have a number 
of questions that we would like to submit; and if you would 
agree to answer those in writing and get them back to us, we 
would really appreciate it. We have some questions that I think 
could be very helpful to us, if we could submit those and have 
you respond in writing.
    Thank you so very much. And, again, you have been a 
wonderfully patient group, and we greatly appreciate it.
    And we will go to our last panel, panel 3. We have Tamara 
Chrisler. She is the Executive Director of the Office of 
Compliance. She was appointed to this position in January 2008. 
Prior to joining the Office of Compliance, Ms. Chrisler served 
as a labor and employment attorney for the Federal Bureau of 
Prisons, representing the interests of the government as well 
as the administrative agencies in claims brought by employees 
before the Federal court.
    And we have Ms. Janet Crenshaw Smith who is the president 
of Ivy Planning Group LLC, which is a leading consultant and 
training firm that specializes in diversity strategy and 
leadership.
    Ladies, I appreciate your being with us. And if you would 
stand and be sworn in, then we could proceed.
    [Witnesses sworn.]
    Mr. Davis. I certainly want to thank both of you for your 
long-enduring patience and the fact that we are still here. And 
if you would begin, and we will try to wrap this up.

STATEMENTS OF TAMARA E. CHRISLER, EXECUTIVE DIRECTOR, OFFICE OF 
 COMPLIANCE; AND JANET CRENSHAW SMITH, PRESIDENT, IVY PLANNING 
                           GROUP LLC

                STATEMENT OF TAMARA E. CHRISLER

    Ms. Chrisler. Thank you, Mr. Chairman. Good evening. I 
would like to thank you for the opportunity to testify at your 
oversight hearing on the representation of women and minorities 
in executive level positions in the legislative branch. The 
Office of Compliance is privileged to be included in your 
review of the reports from those agencies that have performed 
diversity audits at the direction of this subcommittee. 
Briefly, I would like to tell you a little bit about our office 
before answering any questions that you may have.
    The Office of Compliance is governed by the Congressional 
Accountability Act [CAA] of 1995, which requires covered 
legislative branch agencies to follow employment and workplace 
safety laws applied to the private sector and to the Federal 
Government at large.
    Of particular relevance to today's hearing is section 201 
of the CAA, which requires that all personnel actions involving 
covered employees be free from discrimination based on race, 
color, religion, sex, or national origin, disability, and age 
for those 40 or older.
    The Office of Compliance is committed to guaranteeing that 
the workplace of legislative branch employees is a fair one and 
providing assistance to Congress and its instrumentalities and 
agencies in meeting their workplace demands.
    Certain of our core statutorily mandated functions are 
pertinent to this hearing. Our education mandate requires us to 
educate covered employees in employing offices in the 
legislative branch about their rights and responsibilities 
under the CAA. We meet this mandate by maintaining a 
comprehensive Web site and providing written materials and 
publications; by participating in a quarterly briefing 
sponsored by the Congressional Research Service; and, by 
publishing our Annual Report to Congress, providing both 
statutorily mandated statistics and narratives detailing 
accomplishments tracked to our strategic plan.
    The agency has most recently conducted our second major 
conference on alternative dispute resolution for managers, 
which the prior panel spoke to briefly, and has a similar 
conference scheduled for September 23, 2008 for union 
officials.
    The CAA establishes a confidential and mandatory dispute 
resolution process for covered employees that is implemented by 
the Office of Compliance as a neutral and independent agency. 
The statutorily mandated process requires initial counseling 
and mediation. Our mediation program, a proven method of 
alternative dispute resolution, has been highly successful in 
assisting both employees and employing offices come to 
resolution without the cost and burdens of litigation.
    Not included among our core functions is the authority to 
review and comment on the adequacy of any particular diversity 
plan, nor do we develop those plans for our covered community. 
However, we do have authority to conduct educational programs 
tailored to the specific diversity needs of our covered 
community. We seek always to serve as an expert resource and an 
educator and trainer on the rights and protections afforded by 
the CAA.
    I appreciate the question that you asked, Mr. Chairman, on 
training that our office can provide. Our office is always 
looking to improve our education and outreach program.
    The point that I would like to make about our education and 
outreach program is that the training that we provide is 
provided from our perspective. What we would like to do and 
what the office has efforts to provide at this--as we speak is 
engage the employing offices and employees in a survey so that 
they can tell us what their needs are. They can share with us 
their understanding of their rights and responsibilities under 
the CAA so that we can target and focus our training efforts to 
the needs of our stakeholders.
    This survey is being implemented now. It is on our Web 
site. It was sent out in our newsletter, so that all employees 
of the legislative branch were made aware of the survey. And 
hopefully that information will help us to target our efforts 
and training.
    We are here to serve you and to assist you in ensuring a 
fair, safe, and accessible workplace for the thousands of 
legislative branch employees and visitors to the Capitol 
complex. We are constrained in our aspirations only by 
resources to do more and better education and outreach. With 
additional resources, our agency could provide enhanced 
outreach to our stakeholders and district offices, additional 
publications and materials, and more training sessions and 
conferences. The Office of Compliance applauds the work of this 
subcommittee in seeking to ensure that legislative branch 
agencies' personnel policies and practices are both fair and 
promote the opportunity for all employees to maximize their 
contributions to their agency. The Office of Compliance is 
dedicated to those same ends, and we seek to assist the 
subcommittee in its efforts.
    I am available to answer any questions you may have.
    Mr. Davis. Thank you very much. And we appreciate your 
testimony.
    [The prepared statement of Ms. Chrisler follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. Ms. Smith.

               STATEMENT OF JANET CRENSHAW SMITH

    Ms. Smith. Chairman Davis and members of the subcommittee, 
thank you for the invitation to testify regarding the GAO 
African American and Caucasian analyst performance assessment 
study. In March, I testified before this committee on tasks one 
and two. Today I am pleased to return to provide the final 
report, and I will highlight just a few points.
    As background, the Ivy team performed the tasks, the study 
in three tasks. Task one was the statistical analysis; task two 
was an assessment and comparison of education, engagement 
roles, background, etc., of new hires; and task three was 
collecting more qualitative data on the analysts and raters, 
the interview focused groups, and also an assessment of best 
practices. We completed the study in April 2008 and presented 
our findings.
    Ivy concluded that the factors that contribute to the 
average performance ratings disparities between African 
American and Caucasian analysts fell into three categories: 
human capital, processes and management practices, GAO's 
culture, and the significance of race.
    With regard to human capital processes and management 
practices, GAO has invested a significant amount of resources, 
result in human capital processes including performance 
management, that do incorporate industry best practices. There 
are opportunities to improve these processes, including 
recruiting, the role of the PDP advisor, and training and 
development. And also, some of these processes, while best 
practices, are executed inconsistently, which may attribute to 
the ratings disparity.
    With regards to GAO's culture, GAO has a distinct culture. 
It is an intense environment where people are committed to 
meeting the mission with limited resources and with a focus on 
excellence. There is a GAO way, and some of its elements are 
both unwritten and subtle.
    The benefits of GAO's culture, that it is high energy, high 
quality work, with a consistent look and feel and demand for 
more from their satisfied clients. However, the same culture 
drives supervisors to manage production, not people.
    Regarding the significance of race, statistical analysis 
show there are differences in ratings between the African 
American analysts and Caucasian analysts in general by 
competency, pay band, team location, regardless of the race of 
the rater, and those differences are statistically significant. 
While it is clear that race is a factor in the ratings 
disparity, the causes for the ratings disparity are not clear.
    The statistical analysis didn't determine the disparity 
between the actual performance and the rated performance. It 
also didn't address the impact of subjectivity on the 
disparity. Beliefs about these causes and disparities vary also 
by race. Caucasians were more likely to question the quality of 
the recruiting process, while African Americans were more 
likely to question the quality, integrity, and execution of the 
performance appraisal system itself.
    The workplace experience also varied by race. Ivy's final 
report, as you have heard, provided more than 20 
recommendations to the GAO. Many of those recommendations 
require a shift in GAO's culture, and culture change does not 
happen quickly. Some of those recommendations included that GAO 
take steps to create a more inclusive workplace culture; that 
they address the race issue directly; and they provide skills 
training, not just awareness training.
    We also recommended that GAO encourage more balance between 
managing the work and developing people; that there should be a 
culture of shared accountability. We recommend that GAO take 
steps to make the unwritten rules of the workplace more clear; 
that they do it through analysis, communication, mentoring, and 
training. We also recommended that GAO reassess how it 
evaluates performance.
    As the president of an 18-year-old management consulting 
firm, I know that success comes by moving beyond strategy and 
taking action. We therefore encourage GAO to create performance 
metrics to monitor their progress.
    Although many of our recommendations require a shift in 
GAO's culture, overall GAO's senior leaders and employees at 
all levels have been receptive. Ivy will be involved in some 
aspects of the implementation of our recommendations. As you 
heard earlier in Mr. Stroman's and Ms. Garcia's testimonies, 
GAO has also taken steps independently to act positively on our 
recommendations.
    This study centered on issues that are critical to GAO's 
work force, and I also believe that it has more broad 
implications to the entire Federal work force. Issues of 
fairness, diversity, integrity, inclusion, and transparency 
should be considered by all agencies. These issues impact the 
performance of our government, and they impact the experiences 
and the careers of employees.
    Mr. Chairman, that concludes my prepared statement. Thank 
you for the opportunity to testify on this critical matter.
    Mr. Davis. Thank you very much. And we certainly appreciate 
the work that you and your company does and the work that you 
have done.
    [The prepared statement of Ms. Smith follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis. Ms. Chrisler, let me ask you, what happens when 
there is a complaint; and say if the complaint is found to be 
valid or there is validity, what happens as a result of that?
    Ms. Chrisler. Mr. Chairman, there are a number of results 
that could come about after having a finding that a complaint 
is valid. Let me just give a little background about our 
program and what it is we offer and the process that we have.
    When an employee approaches our office with an inquiry, 
with an allegation of a violation of the CAA, we offer the 
counseling program, which is strictly confidential; we offer 
mediation, which is also confidential. And if the issue is not 
resolved in mediation or in counseling, then the employee has 
the opportunity to move forward to a complaint, either an 
administrative complaint filed with our office that goes before 
a hearing officer for an evidentiary hearing, or a civil action 
in court that goes through a court proceeding.
    In answer to your question, once a determination has been 
made that the allegation of the violation of the Congressional 
Accountability Act is in fact an act of discrimination, a 
hearing officer or a court could award a number of things for 
the employee: could award damages, could award reinstatement, 
could award selection to the position for which there was a 
nonselection.
    Going more to the matters at hand before this subcommittee, 
perhaps what could happen within the agency is that the agency 
take a look at some of the scenarios and circumstances that 
gave rise to the allegation where there was a finding of 
discrimination. Our office and our agency is not involved in 
that process in the aftermath of the finding of discrimination.
    What we do is provide the process, the fair and neutral and 
impartial proceeding for the employee through our dispute 
resolution program. The education and outreach components of 
our statutory mandate does provide the agency with the ability 
and the authority to reach out to the agencies' employing 
offices and employees, and provide training and provide 
workshops and provide conferences to help assist them in 
addressing any of the issues that were part of the 
circumstances that gave rise to the allegation.
    Mr. Davis. Does the agency receive any kind of instruction 
or recommendation? And, if so, where does it come from.
    Ms. Chrisler. Would you explain your question for me, Mr. 
Chairman?
    Mr. Davis. The question is: Does the agency receive any 
kind of instruction? Does anybody say to the agency, you have 
been found to not be in compliance with the Accountability Act, 
and here's what we think you ought to do. Or, here's what you 
should do. Or, here's what you must do.
    Ms. Chrisler. Thank you for that clarification.
    Once there is a determination that there has been a 
violation of the Congressional Accountability Act, if there is 
an administrative complaint filed--and I want to be clear in 
the distinction between the administrative complaint and the 
civil action, because our agency is not involved in the 
processing of the claim once it reaches district court. We are 
not even privy sometimes to the filing of a complaint in 
district court. But once there is a finding of a violation of 
the CAA through an administrative proceeding, the hearing 
officer will render a decision with an analysis of the facts 
and analysis of the law and a determination as to why the 
circumstances that brought about--equal to a violation of the 
act.
    In the hearing officer's decision, there is the remedy that 
is provided to the employee. Going beyond that, our agency does 
not step into the employing office and say, Now that this 
finding has been entered against you, you should do this or you 
must do that. Our act is very specific with respect to the 
jurisdiction that we have, with respect to dispute resolution 
programs, and we don't have that authority. However, our 
education and outreach program does allow us to hold these 
trainings and workshops in other seminars and other venues and 
functions should an employing office request our assistance. If 
the employing office receives the finding and says, ``Office of 
Compliance, we would like for you to hold some training for 
us,'' we would be more than happy to sit down with the 
employing office and help them work through some of the 
underlying issues.
    Mr. Davis. So the employee gets a remedy, but there is 
nothing necessarily that will keep the agency from doing the 
same thing again to another employee other than the fact that 
we got caught this time. And so if individuals don't continue 
to--as often happens. I mean, not every person will file a 
complaint, not every person will followup and follow through. 
And I am just trying to think through. Maybe we want to revisit 
a little bit and see if there is some way to help the agency to 
not do the same thing over and over and over again, as well as 
getting some remedy for the employee.
    I really appreciate you taking me through that process.
    Ms. Chrisler. Thank you, Mr. Chairman. If I may add, we do 
hope that our proactive programs are helpful to the agencies 
and do act as information providing and educating the agencies 
in different methods that they can use to address issues. At a 
lower level, our dispute resolution conference we heard from 
the testimony was very helpful and very beneficial. Hopefully, 
our baseline survey that we have implemented, that we are 
hoping to get data back on, will also inform us of other areas 
where we can be helpful.
    So in addressing the issue that you so eloquently raised, 
we hope that our actions and our efforts through our education 
and outreach program are helping the agencies be proactive, and 
not waiting to get to a point where there is a complaint filed 
and there is a hearing and there is a finding against the 
agency before they say, OK, well now what do we do? We want our 
efforts to help on the front end and not on the back end.
    Mr. Davis. I recognize that you have not been with the 
agency an extended period of time. But have you had a chance to 
look at data and notice any trends that might relate to the 
last 5 years as to whether or not there is an increase in 
complaints, or are they about remaining the same or a decrease 
in any of the areas?
    Ms. Chrisler. Thank you for that. And I have not been with 
the agency for an extended period of time, but I have looked at 
some of the data that we have over the last few years. Let me 
preface this by saying we only see the numbers from our 
perspective. We only see a portion of the entire circumstances. 
So we don't see the agency's recruitment efforts. We don't see 
the internal informal programs that they have to address issues 
of discrimination and to address other workplace issues. So we 
do see the numbers only of what's brought to our office.
    But from what it is that we have seen, there is no 
significant changes in the numbers over the years to suggest a 
trend one way or the other.
    Mr. Davis. Thank you very much.
    Ms. Smith, let me ask you. You found there to be 
significant differences in the ratings of African Americans and 
Caucasian or non-African American staff at the GAO. As you 
found, or as this was revealed to you through your efforts, 
what came to mind in terms of your thinking about all of the 
individuals that obviously got hired. I mean, they all had 
certain prerequisites in order to merit hiring. They had all 
been to school, they have all basically got the same kind of 
credentials coming in. What went through your mind?
    Ms. Smith. Well, Mr. Chairman, this was what I consider to 
be groundbreaking work because the nature of the study allowed 
for the opportunity to go about answering the question in a 
very structured manner. So the statistical analysis allowed the 
opportunity to really isolate all of the factors that may have 
contributed to the performance, the average performance ratings 
disparity.
    So at first what went through my mind was well, let's break 
it out to see what might be contributing, and the regression 
analysis allowed us to do that. So we could look to see, was it 
degree? Was it work background? What might be causing that 
difference? We were able to, through the data--and it was 
really important to perform the data analysis, because that 
allows people to really understand when it is looking at the 
data versus only talking to people to get their perspective. 
And the data showed that race indeed was a factor.
    Now, what caused that? One of the most interesting things 
to witness was to be in those focus groups where we had focus 
groups with Caucasian analysts and then African American 
analysts, with Caucasian raters and then African American 
raters. And, again, the difference just in the voices in 
answering the question why the difference in performance 
ratings again was divided by race, such that Caucasian 
analysts, Caucasian raters are more likely to believe that it 
was a matter of the talent, the actual performance, while 
African American analysts and raters are more likely to believe 
that it was something about the system. Although, across the 
board, both African Americans and Caucasians said there is a 
lot of subjectivity in this system.
    The answer is it is probably a ``both and,'' both in terms 
of something about the performance--again, we were never able 
to determine is the actual performance consistent with the 
actual performance rating? So does the performance rating that 
says you are a great writer, is it actually consistent with you 
being a great writer, for both African American analysts and 
Caucasian analysts?
    So the answer, we believe, is very much tied to developing 
people, understanding what it takes to do well, those unwritten 
subtle things that are going on, and learning to look at all 
kinds of differences not as less than but indeed as more than. 
And in terms of how do you actually address this, you address 
this through having a clear plan that is focused on 
organizational improvement, and then holding people accountable 
for executing that plan.
    Mr. Davis. If you were asked to make some recommendations 
to GAO in terms of saying here's what I believe or we believe 
that you can actually do to strengthen diversification 
throughout your agency, what would you say to them?
    Ms. Smith. Well, we had the opportunity to make 
recommendations and there were more than 20. I think one of the 
key pieces is starting with an understanding that we must do 
this for our survival, because we are already a diverse agency 
and we need to be more inclusive. There is a lot of talent 
here. They couldn't have entered the work force unless they 
were talented. Let's understand what it really takes to do well 
here, and let's do it across the board, because we don't know 
that the Caucasian analysts who got high performance ratings 
performed better than those who didn't--even inside, even 
inside race. So let's understand what it takes to do well here, 
and make sure that everybody knows.
    The beauty of transparency is if everybody knows the rules, 
then those who really perform well will be the ones that are 
the highest performers. If everybody knows the rules, then 
let's measure true behavior, true performance, and the agency 
wins. And when you look at diversity as that mission-critical 
enabler, that is when organizations do well, because they 
understand that we need the true talent to be leading this 
organization.
    Mr. Davis. Well, let me just thank both of you, as we thank 
all of our witnesses for the evening. We may have some 
additional questions that we would like to submit to you and 
ask if you could respond to those in writing.
    I appreciate greatly the work in which you are engaged, all 
of you, because I firmly believe that the greatest of all human 
desires is the desire to be treated fairly, equally, with equal 
protection under the law, and the notion that you will 
experience a sense of equal justice and that man is in absolute 
pursuit of that notion. And that as long as there are people 
who feel that is not happening to them and for them, then there 
will be the divergent notions and attitudes about our country, 
about America, and about how far America has actually come.
    I think of the athletes who, if you hit 800 home runs, 
everybody knows that you are a superstar athlete. But if you 
were a minority athlete and you were kind of like a journeyman 
utility player, a guy who could make it but wasn't a superstar, 
you generally didn't stick around too long. I mean, before you 
knew it, you were back on the sand lot playing in pickup games. 
You had some skill, but you weren't a superstar and you just 
didn't stay long. And I know athletes who just had that kind of 
comparative resentment when they think of other players that 
they have known that they felt they were just as talented as. I 
mean, they were all scoring six points a game, which weren't 
that many, but they stayed a little bit longer.
    So let me thank you as we struggle with this highly complex 
issue. We appreciate all of you coming, we appreciate your 
testimony, and we appreciate those whose endurance have kept 
you with us into the evening. So thank you very much. And this 
hearing is adjourned.
    [Whereupon, at 5:48 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
